<html>
<title> - ASSESSING THE CAPABILITIES AND COORDINATION OF THE FEDERAL EMERGENCY RESPONSE TEAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 ASSESSING THE CAPABILITIES AND COORDINATION OF THE FEDERAL EMERGENCY 
                             RESPONSE TEAMS 

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2007

                               __________

                           Serial No. 110-33

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-908 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2
The Honorable Donna M. Christensen, a Delegate in Congress from 
  the U.S. Virgin Islands........................................    36
The Honorable Nita M. Lowey, a Representative in Congress from 
  the State of New York..........................................    38
The Honorable Eleanor Holmes Norton, a Delegate in Congress from 
  the District of Columbia.......................................    34
The Honorable Ciro D. Rodriguez, a Representative in Congress 
  from the State of Texas........................................    40

                               Witnesses

Mr. Bill Devir, Commander of Disaster Medical Assistance Team, 
  Ohio-5, Office of Preparedness and Emergency Operations, U.S. 
  Department of Health and Human Services:
  Oral Statement.................................................    12
  Preapred Statement.............................................    14
Mr. Fred Endrikat, Special Operations Chief, Philadelphia Fire 
  Department:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Bob Powers, Acting Deputy Assistant Administrator, Disaster 
  Operations Directorate, Federal Emergency Management Agency 
  (FEMA):
  Oral Statement.................................................     4
  Preapred Statement.............................................     6
Mr. Charles Prather, Chief, Orange County Fire Authority:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

 
                     ASSESSING THE CAPABILITIES AND


 
          COORDINATION OF THE FEDERAL EMERGENCY RESPONSE TEAMS

                              ----------                              


                         Wednesday, May 9, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Lowey, Norton, 
Christensen, Etheridge, Rodriguez, and Dent.
    Mr. Cuellar. [Presiding.] Good morning. The subcommittee 
will come to order.
    This subcommittee is meeting today to assess the roles and 
responsibilities and coordination of the federal response teams 
deployed in the wake of a catastrophic incident.
    Good morning. And, first of all, on behalf of the members 
of the subcommittee, I would like to welcome our panel.
    At the outset, I would like to express concern about the 
timeliness of receiving the witnesses' testimony. It is 
important that all witnesses before--the committee rules 
requires that we receive the testimony 48 hours in advance of 
the hearings so members will have ample time to review and 
develop follow-up questions. I hope this rule will be honored 
in the future.
    For my ranking member, Mr. Dent, if it is okay with you, I 
would ask the committee's staff to sit down with our FEMA folks 
and let's go through the process on how this works, what we can 
do to make sure this doesn't happen again, because it is not 
the first time. If it would have been the first time, we would 
not be doing this.
    But I would ask that FEMA, the governmental liaison, sit 
down with Graig and the committee staff to go over this 
because, again, if it was the first time, Mr. Dent, I would 
just make that statement and move on, but it is one of those 
bad recurring dreams that keeps coming back and back and back 
again.
    So I would ask the staff to sit down with FEMA and any 
other Homeland Security part that is under our jurisdiction to 
make sure that we get these procedural issues out of the way.
    On a positive note, we are glad that all of you are here to 
discuss the coordination and the capabilities of the federal 
response teams that are up in response to this type of 
incident, whether they are terrorist attacks or natural 
disasters. I look forward to hearing testimony from Mr. Powers 
from FEMA, so we can get an overview of how disaster operations 
will work in the new FEMA.
    I also look forward to an update of how the department's 
reforms will impact their ability to quickly deploy assets 
before, during and after disasters. Key assets that FEMA can 
call on in the wake of a disaster are the urban search and 
rescue system and the national disaster medical system. These 
programs form the backbone of a coordinated federal response 
and we need to make sure that they have the resources and the 
management they need.
    Specifically, I am interested in looking at how these teams 
fit into the overall FEMA command structure, especially the 
NDMS, which was transferred from FEMA to the Department of 
Health and Human Services at the beginning of the year. The 
issues identified in the wake of Katrina highlighted the 
discrepancies over who is responsible for bringing response 
capabilities to bear in these types of emergencies.
    At the same time, there were many success stories that came 
out of that disaster. The work of the urban search and rescue 
and the disaster medical assistance teams were definitely among 
them. Congress must ensure that these teams are fully funded, 
adequately trained, and that each team member is given the 
equipment necessary to perform and function at the highest 
level possible.
    It is unsettling that after the devastating Oklahoma City 
bombing, the 9/11 attacks, the Hurricane Katrina, that funding 
levels to support the urban search and rescue systems have 
drastically decreased from $66 million in fiscal year 2003 to 
$25 million in fiscal year 2007. We can all agree that we need 
to make and take the appropriate steps to provide consistent 
funding, as these emergency responders are vital in preserving 
and protecting the lives and the property of American citizens.
    Finally, it has not gone unnoticed by this committee that 
the Department of Homeland Security will likely not meet the 
June 1 deadline in producing the final version of the national 
response plan, which will reflect lessons learned from Katrina. 
Again, I emphasize there have been several deadlines that have 
not been met, and this is another one that has not been met by 
the agency.
    Again, we are interested not in a ``gotcha``-type of 
politics, but we are more interested in how we can work 
together so we can all do our job together. With the 2007 
hurricane season only a few weeks away, we anxiously anticipate 
its release.
    I want to thank the witnesses again for their testimony.
    The chair will now recognize the ranking minority member of 
the subcommittee, the gentleman from Pennsylvania, Mr. Dent, 
for any statement that he might have.
    Mr. Dent. Thank you, Mr. Chairman.
    This hearing continues the subcommittee's oversight of the 
Department of Homeland Security's efforts to strengthen the 
capabilities of FEMA and implement the post-Katrina emergency 
management format of last year.
    One of the lessons learned from the response to Hurricane 
Katrina was that the federal government lacked a clear incident 
command structure, and that information and situational 
awareness were insufficient.
    The emergency response teams we are going to discuss today 
were established to help improve situational awareness and 
support state and local response operations. These teams 
provide federal assistance to help integrate federal, state, 
local, tribal and nongovernmental response efforts in the early 
stages of a catastrophic incident. It is my understanding that 
some of FEMA's response teams will soon be restructured to meet 
the requirements of last year's reform legislation.
    I look forward to discussing the steps FEMA has taken in 
the interim to improve its responsiveness with Mr. Bob Powers, 
FEMA's assistant administrator for disaster operations. I also 
look forward to hearing from him on when and how FEMA 
anticipates the current emergency response teams will be 
transformed into incident management assistance teams, and how 
this will affect the roles of other existing federal response 
assets.
    As the chairman has mentioned today, too, also here with us 
will be Mr. Fred Endrikat, the special operations chief of the 
Philadelphia Fire Department; Mr. Charles Prather, chief of the 
Orange County Fire Authority; and Mr. William Devir, commander 
of Ohio's disaster medical assistance team.
    So I do look forward to discussing with each of these 
gentlemen their perspectives on the coordination of federal 
emergency response teams with other response efforts by state 
and local governments. I also hope to discuss with them ways in 
which Congress can help strengthen this important surge 
capacity for disaster response and whether legislation is 
necessary to do so.
    So I thank the witnesses for taking the time to be here 
today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    I ask at this time for unanimous consent that the gentleman 
from Texas, Mr. Rodriguez, be permitted to join our hearing and 
ask the witnesses questions.
    Without objection, it is so ordered.
    I now welcome the panel of witnesses.
    Our first witness is Mr. Bob Powers, who is the acting 
deputy assistant administrator for disaster operations at the 
Federal Emergency Management Agency within the U.S. Department 
of Homeland Security. Prior to his current post, Mr. Powers 
served as the operations branch chief, response division for 
FEMA, where he was responsible for incident response.
    Our second witness is Mr. Fred Endrikat, who is the special 
operations chief of the Philadelphia Fire Department. The chief 
has been a Philadelphia firefighter for 32 years. He also 
serves FEMA's urban search and rescue national response system 
in concurrent duty assignments as the national task force 
leaders representative, incident support team operations chief, 
task force leader for the Pennsylvania Task Force 1.
    Our third witness is Mr. Charles Prather, who is the chief 
of the Orange County Fire Authority. Chief Prather began 
serving in this capacity in 1997, and is responsible for the 
daily operations of one of the largest fire operations in the 
state of California.
    Our fourth witnesses is Mr. William Devir, who is the 
commander for the disaster medical assistance team, Ohio 5, for 
the national disaster medical system for the U.S. Department of 
Health and Human Services. Commander Devir is the founding 
member of the Team Ohio 5 and has served as team commander 
since 1991.
    We are all pleased to have you present. Again, welcome.
    Without objection, the witnesses' full testimony will be 
inserted in the record.
    I now ask each witness to summarize the statement for 5 
minutes, beginning with Mr. Powers.
    Mr. Powers, if you want to get started?

    STATEMENT OF ROBERT F. POWERS, ACTING DEPUTY ASSISTANT 
      ADMINISTRATOR, DISASTER OPERATIONS DIRECTORATE, FEMA

    Mr. Powers. Good morning, Chairman Cuellar, Mr. Dent, 
members of the committee. Thank you for inviting me here today. 
I am Robert Powers, the acting deputy assistant administrator 
for disaster operations at FEMA. I look forward to working with 
you to continue our joint efforts to enhance the capabilities 
of the Federal Emergency Management Agency in the Department of 
Homeland Security.
    In May 2006, as FEMA was being scrutinized in the wake of 
Hurricane Katrina, the president nominated and the Senate 
confirmed David Paulison as the FEMA director. Mr. Paulison's 
vision for a new FEMA is for FEMA to become the nation's 
preeminent emergency management and preparedness agency. We are 
working hard, very hard, to achieve this vision, especially as 
it relates to strengthening the full spectrum of disaster 
operational capabilities, including developing more robust 
national and regional emergency response teams.
    The post-Katrina reviews, including those from the White 
House, the Senate, the House, and others, and the Post-Katrina 
Emergency Management and Reform Act of 2006 identified a number 
of candidate areas to improve our disaster response 
capabilities. An overarching theme among the recommendations 
was the need to strengthen command, control, coordination and 
unity of effort, and to be able to field a new generation of 
rapidly deployable federal emergency teams.
    Drawing upon our extensive disaster response experience, 
lessons learned, and these recommendations, we are taking 
definitive steps to improve incident management to ensure 
greater operational awareness and to become more proactive in 
our approach. FEMA employs a network of operations and 
coordination centers to help integrate and manage disaster 
response, maintain situational awareness, and develop a common 
operating picture.
    These centers facilitate information-sharing, oversee 
resource allocations, and prepare consolidated, consistent and 
accurate reports on the status of incidents, responses or 
potential events for use by FEMA and department leadership. 
Operationally, FEMA maintains very close connectivity with the 
Department of Homeland Security through the national operations 
center, as well as with national and regional federal, 
military, state, and local operations centers, including our 
joint field offices responding to a disaster, state fusion 
centers, and joint terrorism task forces.
    To manage our situational awareness, coordination and alert 
and notification needs, FEMA has a network of centers, 
including the national response coordination center located at 
FEMA headquarters. It is one of the five component elements of 
the DHS national operations center. The NRCC is a multiple 
agency coordination center that integrates overall federal 
emergency response actions, coordinates FEMA operational 
activities, and manages disaster response from the federal 
interagency.
    Regional response and coordination centers are located in 
each of our 10 FEMA regions. The RRCCs are multi-agency centers 
that coordinate tactical response actions and support the 
regional administrator at joint field offices located within 
their region, and the FEMA administrator. The FEMA operations 
center located at Mount Weather serves as a critical note in 
the nation's warning and communications network.
    As part of our mandate to provide critical assistance to 
state, local and tribal governments, we can activate and deploy 
a number of response teams and assets. They include a national-
level emergency response team called an ERT-N. It is deployed 
by FEMA headquarters for incidents of national significance and 
major disasters; advanced element emergency response teams, 
called ERT-As, are located in each of the 10 FEMA regions. They 
can be deployed in the early phases of an incident to work 
directly with the state and local officials to assess the 
disaster impact, to gain situational awareness, to help 
coordinate the federal response, and to respond to specific 
state requests for assistance.
    The federal incident response support team, or FIRST, can 
rapidly deploy to or work with state and local officials to 
provide preliminary on-scene situational awareness and provide 
initial federal support at the local incident commander level 
to ensure integrated and interjurisdictional response. Urban 
search and rescue task forces can be deployed to assist in 
structural collapse rescue. Mobile emergency response support 
systems, also called MERS, can be deployed to provide mobile 
telecommunications, logistics and operational capabilities.
    As directed by the Post-Katrina Reform Act and adopted as 
part of our continual improvement process, we are developing a 
next-generation of rapidly deployable interagency national and 
regional emergency response teams. Unlike our current emergency 
response teams, which are staffed on a collateral duty basis, 
these new teams will be staffed with a corps of dedicated, 
permanent, full-time employees who when not responding to a 
disaster, will regularly train and exercise as a unit to 
support state and local emergency response, planning, training, 
and exercises.
    These teams are designed to provide better management 
coordination and integration of the federal disaster response, 
and when fully operational will replace the existing emergency 
teams at both the national and regional levels. We are taking 
FEMA in a new direction, one that reflects a broader mission 
challenge, a wider set of partners, and a greater depth of 
mission perspective. The new FEMA will require new skill sets, 
a greater investment in people, and new tools to help ensure 
mission success.
    The response team upgrades currently underway will position 
FEMA to more effectively carry out our core missions to protect 
the American public.
    Thank you for your time today. I look forward to answering 
your questions.
    [The statement of Mr. Powers follows:]

                 Prepared Statement of Robert F. Powers

INTRODUCTION
    Chairman Thompson, Subcommittee Chairman Cuellar, and Members of 
the Committee, thank you for inviting me to appear before you today.
    I am Robert F. Powers, Acting Deputy Assistant Administrator for 
the Disaster Operations Directorate at FEMA. I look forward to working 
with this Subcommittee and Congress to continue improvements to enhance 
the capabilities of the Department of Homeland Security (DHS) and the 
Federal Emergency Management Agency (FEMA). Based on our experiences 
and lessons learned over the years, we are building a new FEMA to 
further improve our Nation's all-hazards preparedness, protection, 
response, recovery and mitigation systems and capabilities. We are 
taking the first steps in what will be a multi-year effort to 
significantly increase FEMA's core operational capabilities and 
capacity to better serve and protect our Nation and its citizens.
    FEMA learned significant lessons from the 2005 Hurricane Season. 
Following Hurricane Katrina, the White House recommended in its report, 
``The Federal Response to Hurricane Katrina Lessons Learned,'' that 
FEMA strengthen operational disaster response capabilities. Similar 
recommendations were made in General Accountability Office, Inspector 
General, and the Senate and House of Representatives reviews. More 
recently, the Post-Katrina Emergency Management Reform Act of 2006 
(Post-Katrina Act) articulated new expectations for FEMA, established 
new leadership responsibilities, brought an expanded scope of missions, 
and called for FEMA to undertake a broad range of activities involving 
preparedness, protection, response, recovery, and mitigation both 
before and after terrorist events, natural and manmade disasters. 
Specific responsibilities assigned to FEMA in the Post-Katrina Act are 
the need to:
        <bullet> partner with non-Federal entities to build a national 
        emergency management system;
        <bullet> improve Federal response capabilities; and
        <bullet> establish national and regional emergency response 
        teams.
    Our goal is to build a new FEMA that will be the Nation's 
preeminent emergency management and preparedness agency. FEMA is 
adopting a more forward leaning and collaborative disaster response 
approach and, we are strengthening our capabilities across the full 
spectrum of operational and support missions. Central to this effort 
will be developing more robust National and Regional disaster response 
teams that will provide the critical support needed to help State, 
local, and tribal governments respond to disasters. It is my pleasure 
to discuss with you today in more detail our current disaster response 
teams and assets, and actions we are taking to improve our capabilities 
to serve the American people.

BACKGROUND
    FEMA's primary mission is to reduce the loss of life and property 
and protect the Nation from all hazards, including natural disasters, 
acts of terrorism and other man made disasters by leading and 
supporting the Nation in a risk-based, comprehensive emergency 
management system of preparedness, protection, response, recovery, and 
mitigation. FEMA has the primary responsibility for leading and 
coordinating the Federal government's disaster response efforts.
    The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
provides the legal basis for FEMA to provide disaster response and 
recovery assistance. Following a major emergency or disaster 
declaration by the President, FEMA is authorized to dispatch its own 
disaster response teams and assets to provide support or to issue a 
Mission Assignment to the National Response Plan (NRP) signatory 
Departments and Agencies for support. In addition, FEMA can surge 
assets into an area in anticipation of an approaching storm or event 
that is expected to cause a significant impact and result in a declared 
emergency or major disaster. This surge allows FEMA to position for a 
quick response, but actual assistance cannot be provided until the 
Governor requests and a Presidential declaration is made.
    The Mission Assignment is the vehicle used by FEMA in a Stafford 
Act major disaster or emergency declaration to order immediate, short-
term disaster response assistance from Departments and Agencies to help 
State, local, and tribal governments that are overwhelmed by the event 
and unable to perform the necessary work. To streamline and facilitate 
rapid disaster response, FEMA has also approved a number of Pre-
Scripted Mission Assignments (PSMAs). In 2006, FEMA had a total of 44 
PSMAs in place for support--16 Department of Defense PSMAs and 28 
United States Army Corps of Engineers PSMAs. By June 15, 2007, we 
expect to complete an additional 141 PSMAs for a total of 185 to 
support our disaster response activities.
    Disaster response support is coordinated through one or more of the 
NRP's 15 Emergency Support Functions (ESFs). The ESFs serve as the 
primary operational-level mechanism supporting FEMA in providing State 
and local disaster assistance in functional areas such as 
transportation, communications, public works and engineering, 
firefighting, mass care, housing, human services, public health and 
medical services, search and rescue, agriculture, and energy. The 32 
Departments and Agencies signatory to the NRP provide substantial 
disaster response assistance in their areas of expertise and in essence 
become force multipliers for FEMA when assigned missions to support the 
disaster response. In addition, FEMA can surge its own teams and assets 
into an area in anticipation of an approaching storm or event that is 
expected to cause a significant impact and result in a declared 
emergency or major disaster and can turn to other DHS components such 
as the U.S. Coast Guard for assistance. The surge capability allows 
FEMA to pre-position for a quick response, but actual assistance cannot 
be provided until the Governor requests and a Presidential declaration 
is made.

FEMA DISASTER RESPONSE ASSETS
    FEMA has multiple disaster response operations centers and teams 
that allow us to provide and coordinate disaster response assistance. 
As stated above, our approach is to lean forward aggressively in 
pushing resources out and sustaining the flow of these resources to 
ensure immediate and continued support to the impacted governments.

    OPERATIONS CENTERS
    FEMA manages a network of FEMA operations centers to coordinate and 
sustain response operations, maintain situational awareness and a 
common operating picture for DHS and FEMA leadership, facilitate 
information sharing between FEMA and non-FEMA entities, and provide 
internal and external stakeholders a consolidated, consistent, and 
accurate status of on-going incidents, responses, or potential events. 
The key components of this network are the National Response 
Coordination Center (NRCC) in FEMA Headquarters; the Regional Response 
Coordination Centers (RRCC) located in each of the ten FEMA Regions; 
the FEMA Operations Center (FOC) located at the Mt. Weather Emergency 
Assistance Center; the five Mobile Emergency Response Support (MERS) 
Operations Centers (MOC) located in the States of Massachusetts, 
Georgia, Texas, Colorado, and Washington; and the Logistics Response 
Center at Headquarters.

NRCC
    The NRCC is a multi-agency center that functions as the operational 
component of the DHS National Operations Center (NOC) to provide 
overall Federal response coordination for Incidents of National 
Significance, disaster response operations, and emergency management 
program implementation. The NRCC maintains situational awareness 
linkages with the RRCCs, State Emergency Operations Centers (EOC), 
selected local EOCs in each of the ten FEMA Regions, Regional DHS 
components, Regional ESF EOCs, State Fusion Centers, Joint Terrorism 
Task Forces, Regional Department of Defense Operations Centers, and 
other key operational nodes. The NRCC routinely supports program 
implementation and disaster response and resource planning; coordinates 
incident management operations; monitors potential or developing 
Incidents of National Significance; supports regional and field 
components; and provides overall response and resource coordination for 
DHS and FEMA. In addition to maintaining a 24/7 Watch Team, the NRCC is 
augmented by the ESFs during disaster operations and is responsible 
for:
        <bullet> Drafting and distributing operational warnings and 
        orders;
        <bullet> Monitoring the preparedness of national-level 
        emergency response teams and resources;
        <bullet> Initiating MAs to other Federal Departments and 
        Agencies;
        <bullet> Activating and deploying national-level teams and 
        entities;
        <bullet> Tracking and managing Federal resource allocations;
        <bullet> Coordinating operational response and resource 
        allocation planning with other Departments and agencies, the 
        RRCCs, the Joint Field Office (JFO), including the use of 
        Federal remote sensing/disaster assessment support; and
        <bullet> Collecting, evaluating, and disseminating information 
        and incident reports on resource status.
    The Logistics Response Center is part of the NRCC and manages 
logistics activities at the Headquarters level. The Mobile Emergency 
Response Support Operations Centers also support the FEMA Regions, DHS 
Components, State EOC(s) and other MERS deployed command and control 
assets while supporting emergency communications in the field during 
Incidents of National Significance.

RRCC
    The RRCCs are regionally-based multi-agency coordination centers 
that perform a complementary role to the NRCC. Operating in the ten 
FEMA Regions, the RRCCs provide situational awareness information, 
identify and coordinate response requirements, perform capabilities 
analysis, and report on the status of Federal disaster response 
operations. FEMA is in the process of hiring two new Watch Analysts in 
each Region. The RRCCs deploy liaison officers and the Emergency 
Response Team-Advanced (ERT-A) to initiate Federal support, facilitate 
initial delivery of goods and services to save lives and property and 
stabilize local infrastructures, and facilitate prioritizing ``in 
theater'' interagency resource allocation and coordination, and support 
multiple concurrent disaster operations within the Region. NRCC and 
RRCC activations and operations are scalable and based on the nature, 
scope, magnitude, and potential impacts of the potential or actual 
incident.
    Operational Planners have been hired at FEMA Headquarters and will 
be hired for the Regions to augment the ability to conduct more 
sophisticated analyses in the NRCC and RRCCs. In addition, ongoing 
assessments of capabilities are underway to identify shortfalls and 
equipment needs in order to improve coordination and connectivity 
between the Regions and Headquarters.

FEMA Operations Center (FOC)
    The FOC supports the NRCC with a 24-hour watch. The FOC implements 
notifications to the Departments and Agencies that support the NRCC as 
well as activating emergency management staff. The FOC receives, 
analyzes, and disseminates all-hazards information within FEMA and DHS 
and to Departments, Agencies, and disaster response team members. The 
FOC, in coordination with the National Operations Center, facilitates 
distribution of warnings, alerts, and bulletins to the emergency 
management community using a variety of communications systems such the 
National Warning System, the Washington Area Warning System and the 
National-level Emergency Alert System.

DISASTER RESPONSE TEAMS AND ASSETS
    To assist State, local and tribal governments overwhelmed in a 
disaster situation, FEMA's Disaster Operations Directorate can 
immediately deploy multiple disaster response teams. We regularly test 
the capability of our teams and systems to execute their mission by 
participating in multi-agency and State and local exercises. Several 
different types of disaster response teams can be deployed to support 
disaster response, as discussed below. In accordance with the Post-
Katrina Act, FEMA is developing a next generation of rapidly deployable 
interagency National and Regional emergency response teams, tentatively 
identified as Incident Management Assistance Teams (IMAT). These teams 
will eventually replace existing Emergency Response Teams at the 
National and Regional level and the Federal Incident Response Support 
Teams (FIRST) and be designed to provide a forward Federal presence to 
better manage and coordinate the National response for catastrophic 
incidents. The new IMAT concept is discussed later.

Emergency Response Teams-National (ERT-N)
    FEMA's ERT-Ns are deployed by FEMA Headquarters in response to 
Incidents of National Significance and major disasters. Their purpose 
is to coordinate disaster response activities, coordinate and deploy 
key national response assets and resources, provide situational 
awareness, and maintain connectivity with key Department of Homeland 
Security operations centers and components. ERT-Ns are made up of 
approximately 32 individuals from FEMA Headquarters and Regions who 
also have day-to-day responsibilities beyond their team assignments. 
ERT-Ns are organized according to National Incident Management System/
Incident Command System (NIMS/ICS) standards, which provide a 
systematic, proactive, and coordinated approach for governmental and 
nongovernmental organizations at all levels to effectively prepare for, 
prevent, respond to, recover from, and mitigate the effects of 
incidents. ERT-N members typically provide the initial staffing cadre 
for a JFO supporting a major disaster/Incident of National 
Significance. The JFOs and ERT-Ns are supported by FEMA's MERS 
detachments which provide support in operations, communications, and 
logistics. FEMA is working toward achieving NIMS compliance for all 
teams.

Emergency Response Teams-Advanced (ERT-A)
    ERT-As are located in the ten FEMA Regions and can be deployed in 
the early phases of an incident to work directly with the States to 
assess the disaster impact, gain situational awareness, help coordinate 
the disaster response, and respond to specific State requests for 
assistance. The ERT-As are made up of approximately 25 individuals from 
the FEMA Regions, who also have day-to-day responsibilities beyond 
their team assignments, and representatives from the ESF Departments 
and agencies. The ERT-A initially establishes its presence in the State 
Emergency Operations Center and later staffs the JFO to support the 
disaster response. The ERT-As deploy with basic communications 
capabilities including cell phones, wireless laptop computers, and a 
limited number of satellite cell phones. As needed, they can also be 
supported by the MERS detachments and their capabilities. A small 
component of an ERT-A, the Rapid Needs Assessment Team, is designed to 
collect disaster information in field needed to determine more specific 
disaster response requirements.

Federal Incident Response Support Teams (FIRST)
    FIRSTs are emergency response teams consisting of approximately 
five individuals who can be deployed immediately to an incident or 
disaster, particularly an Incident of National Significance. We 
currently have two FIRSTs, one located in Region IV in Atlanta, 
Georgia, and the other in Region V in Chicago, Illinois. They are 
designed to serve as the forward component of the ERT-A and will 
provide the core preliminary on-scene Federal management that supports 
the local incident commander or area commander to ensure an integrated 
inter-jurisdictional response. Current Federal incident response 
support provided by these teams includes a command vehicle and 
communications capabilities consisting of Trac-star, Global Star, 
Iridium, high frequency, very high frequency repeaters, CATV, INMARSAT/
BGAN, internet, computers, mobile radios, and GPS Units. The FIRSTs 
will ultimately be consolidated into the next generation of emergency 
response teams, tentatively being called IMATs, which are being 
developed.

Hurricane Liaison Team (HLT)
    The HLT is a small team designed to enhance hurricane disaster 
response by facilitating information exchange between the National 
Hurricane Center in Miami, Florida, and other National Oceanic and 
Atmospheric Administration components and Federal, State, and local 
government officials.

Urban Search and Rescue (US&R) Task Forces
    The National US&R Response System is a framework for structuring 
local emergency services personnel into integrated disaster response 
task forces. The 28 National US&R Task Forces, complete with the 
necessary tools, equipment, skills and techniques, can be deployed by 
FEMA to assist State and local governments in rescuing victims of 
structural collapse incidents or to assist in other search and rescue 
missions.
    The 28 Task Forces are located throughout the continental United 
States. Any Task Force can be activated and deployed by FEMA to a 
disaster area to provide assistance in structural collapse rescue, or 
may be pre-positioned when a major disaster threatens a community. Each 
Task Force must have all its personnel and equipment at the embarkation 
point within six hours of activation. The Task Force can be dispatched 
and en route to its destination in a matter of hours. There are three 
types of task forces. A Type I task force consists of 70 multi-faceted 
cross- trained personnel divided into six major functional elements: 
search, rescue, medical, hazmat, logistics, and planning, supported by 
canines and capable of conducting physical search and heavy rescue 
operations in damaged or collapsed reinforced concrete buildings. Each 
Task Force can be divided into two 35-member teams to provide 24-hour 
search and rescue operations and are completely self-sufficient for 72-
hours. Task Forces are also equipped with convoy vehicles to support 
over the road deployments and can be configured into a Light Task Force 
to support weather events such as hurricanes and tornadoes and other 
similar type incidents. An intermediate size Task Force is currently 
under development.

    The US&R Task Forces have the following specific capabilities:
        <bullet> Ability to conduct physical search and rescue 
        operations in damaged/collapsed structures;
        <bullet> Ability to operate in a known or suspected weapons-of-
        mass-destruction environment;
        <bullet> Ability to provide emergency medical care for 
        entrapped victims, Task Force personnel and search canines;
        <bullet> Ability to provide reconnaissance to assess damage and 
        needs, and provide feedback to other officials;
        <bullet> Ability to provide assessment/shut-off of utilities to 
        houses and other buildings;
        <bullet> Ability to provide hazardous materials survey/
        evaluations;
        <bullet> Ability to provide structural and hazard evaluations 
        of buildings; and
        <bullet> Ability to stabilize damaged structures, including 
        shoring and cribbing;
    In preparation for the 2007 Hurricane Season, the US&R Hurricane 
Concept of Operations has been updated based on lessons learned. Also, 
in coordination with our partner agencies, including the U.S. Coast 
Guard, Department of the Interior, and Department of Defense, we have 
expanded the NRP ESF-9 Annex and to reflect a broader scope of search 
and rescue capabilities including water and wilderness search and 
rescue.

Mobile Emergency Response Support (MERS)
    Another key FEMA disaster response asset is the MERS System. The 
primary function of MERS is to provide mobile telecommunications, 
logistics, and operational capabilities for the on-site management of 
disaster response activities. MERS support falls into three broad 
areas:
        <bullet> Operations--Mobile Emergency Operations Centers, quick 
        reaction support, disaster preparedness (HAZMAT) officers, and 
        MERS security officers.
        <bullet> Communications--satellite, multiple radio vans, High 
        Frequency line of sight microwave, land mobile radios, voice, 
        video, and data capabilities, and wide area interoperability.
        <bullet> Logistics
        <bullet> fuel, water, HVAC, life support, transportation, and 
        power.
    MERS provides support required by Federal, State and local 
responders in their efforts to save lives, protect property and 
coordinate disaster operations. MERS can provide prompt and rapid 
multi-media communications, information processing, logistics, 
administrative, and operational support. Staged in six strategic 
locations, one with offshore capabilities, the MERS detachments can 
concurrently support a large JFO and multiple field operating sites 
within a disaster area. The telecommunications function is accomplished 
using a variety of communications transmission systems including 
satellite, high frequency, and microwave line-of-sight interconnected 
by fiber optic cables to voice and data switches, local area networks, 
and desktop devices such as personal computers and telephones. MERS 
Telecommunications assets can be provided for one or multiple locations 
within a disaster area and can be used to establish or reestablish 
communications connectivity with the public telecommunications system 
or Government telecommunications networks. Facilities within a disaster 
region can be interconnected by MERS assets to enhance emergency 
communications interoperability and austere facilities can be wired for 
computer, telephone, and video networks.
    FEMA deploys MERS capabilities to support the JFO and provide for 
its continuing operational communications and systems needs. FEMA 
focuses on providing seamless emergency communications across the full 
spectrum of disaster operations. To meet this objective, FEMA provides 
a national, tactical and fixed emergency communications capability for 
command and control and situational awareness at all levels of 
government during emergencies and incidents. Additionally, FEMA can use 
supplemental assets to provide Forward Area Wireless access (satellite, 
cellular and land mobile radio) to users across the department. This 
deployment strategy improves our support to State, county, and local 
first responders. As the Nation's preeminent emergency management 
agency, FEMA will extend its sphere of influence and assume a leading 
National role in the field of disaster emergency communications, 
supported by MERS, and in full coordination with all of the Federal 
stakeholders and ESFs partners.

Nuclear Incident Response Team (NIRT)
    The NIRT teams are specialized teams managed day-to-day by the 
Department of Energy (DOE)/National Nuclear Security Administration 
(NNSA) and the Environmental Protection Agency (EPA). They are 
operationally controlled by DHS/FEMA when activated to provide expert 
technical advice and support in disaster response operations and other 
needs involving:
        <bullet> Nuclear weapons accidents and incidents of national 
        significance;
        <bullet> Radiological accidents;
        <bullet> Lost or stolen radioactive material incidents; and
        <bullet> Acts of nuclear terrorism.
    The NIRT consists of assets from DOE and the EPA and, when 
activated, operates as a DHS organizational unit under the operational 
control of DHS. The NIRT is configured for rapid response to nuclear 
accidents or incidents. The NIRT interagency specialized teams are a 
quick deployment advance element with specialized equipment and trained 
personnel that assess situations and advise local, State and Federal 
officials on the scope and magnitude of response needs. NIRT teams have 
the capability to conduct specialized search and detection operations 
for nuclear weapons, improvised nuclear devices, or radiological 
dispersal devices in urban or other areas on the ground or by special 
air support. They support the full spectrum of all nuclear/radiological 
incidents or accidents considered to be Incidents of National 
Significance including: terrorist use of radiological dispersal devices 
or improvised nuclear devices as well as reactor accidents (commercial 
or weapons production facilities). NIRT consists of one or all of the 
following DOE/NNSA and EPA response assets:
        <bullet> Aerial Measuring System: airborne radiological sensing 
        and surveying;
        <bullet> Accident Response Group: scientific technical 
        expertise and equipment;
        <bullet> Federal Radiological Monitoring and Assessment Center: 
        operational and logistic management focused on radiological 
        consequence management;
        <bullet> National Atmospheric Release Advisory Capability: 
        computer modeling of transport, diffusion, and disposition of 
        radioactive and hazardous materials;
        <bullet> Nuclear Emergency Support Team: umbrella team 
        encompassing Nuclear/Radiological Advisory Team, Joint 
        Technical Operations Team, and the Search Response Team;
        <bullet> Radiological Assistance Program: regional first 
        response capability;
        <bullet> Radiation Emergency Assistance Center/Training Site 
        (REAC/TS): cadre of physicians, nurses, and other specialists 
        who provide advanced health physics and medical assistance and 
        advice needed to treat victims of acute radiation exposure 
        accidents.
        <bullet> Radiological Emergency Response Team: provided by the 
        EPA, works with other Federal agencies, State and local 
        governments, and international organizations to monitor, 
        contain, and clean up the release while protecting people and 
        the environment from harmful exposure to radiation.
    NIRT assets deploy at the direction of the Secretary of DHS in 
connection with an actual or threatened terrorist attack, major 
disaster, or other emergency in the United States. A U.S. Secret 
Service liaison is detailed to FEMA Headquarters to coordinate NIRT 
activities and is working closely with DOE and DHS to better define the 
roles and responsibilities of the multiple agencies involved with the 
NIRT.

Domestic Emergency Support Team (DEST)
    The DEST is another specialized interagency U.S. Government team 
designed to expeditiously provide expert advice, guidance and support 
to the FBI On-Scene Commander (OSC) during a WMD incident or credible 
threat. The DEST is comprised of crisis and consequence management 
components and augments the FBI's Joint Operations Center with tailored 
expertise, assessment and analysis capabilities, providing the FBI OSC 
with expert advice and guidance in the following areas:
        <bullet> interagency crisis management assistance;
        <bullet> information management support;
        <bullet> enhanced communications capability;
        <bullet> contingency planning for consequence management 
        support;
        <bullet> explosive devices and their components;
        <bullet> chemical, biological, and nuclear weapons/devices and 
        their components and radiological dispersion devices; and
        <bullet> technical expertise and equipment to operate in a 
        contaminated environment to conduct threat sampling, take 
        measurements, and collect tactical intelligence and evidence.
    The U.S. Secret Service liaison detailed to FEMA Headquarters who 
is coordinating NIRT activities is also responsible for coordinating 
DEST activities. The liaison is working closely with the FBI to better 
define the roles and responsibilities of the multiple agencies involved 
with the DEST.
    Next Generation Emergency Response Teams--Incident Management 
Assistance Teams (IMAT)
    To further enhance disaster response capabilities and ultimately 
provide for the three national-level response teams and regional-level 
emergency response ``strike'' teams required in the Post-Katrina Act, 
FEMA is developing the next generation of rapidly deployable 
interagency emergency response teams, tentatively identified as IMATs, 
designed to provide a forward Federal presence to facilitate managing 
the national response to catastrophic incidents. The primary mission of 
a FEMA IMAT will be to rapidly deploy to an incident or incident-
threatened venue, provide leadership in the identification and 
provision of Federal assistance, and coordinate and integrate inter-
jurisdictional response in support of the affected State(s) or US 
Territory(s). The IMATs will support efforts to meet the emergent needs 
of State and local jurisdictions; possess the capability to provide 
initial situational awareness for Federal decision-makers; and support 
the initial establishment of a unified command.
    IMATs will meet the multi-disciplinary needs of emergency 
management and in the future may include members from the inter-agency 
community. For events where the Secretary determines, or may determine, 
that an Incident of National Significance exists, a national-level team 
will lead the response, supported by regional-level teams. The National 
teams are envisioned to have the capability to establish an effective 
Federal presence within 12-hours of notification, to support the State, 
coordinate Federal activities, provide initial situational awareness, 
and to be self sufficient for a minimum of 48-hours to augment 
potentially scarce local resources.
    The new IMATs will eventually subsume the existing mission and 
capabilities of the FIRST and ERTs and their mission and capabilities 
and will incorporate similar leadership, emergency management doctrine, 
and operational communications concepts. The national-level and 
regional-level teams will be staffed with a core of permanent full-time 
employees, unlike the ERTs, which are staffed on a collateral duty 
basis; will be fully compliant with NIMS and ICS; and will train and 
exercise as a unit.
    The National IMATs will consist of approximately 26 staff members 
and the Regional IMATs each will consist of approximately 15 staff 
members. Both teams can be augmented with additional staff as needed. 
The teams will be supported by FEMA's MERS elements as described 
earlier. The teams are still being designed and decisions on team 
assets, equipment, and expected capabilities have not yet been 
finalized. When not deployed, the teams will train with Federal 
partners and provide a training capability to elevate state and local 
emergency management capabilities. The teams will also engage in 
consistent and coordinated operational planning and relationship-
building with State, local, tribal, and other stakeholders.
    Initially, our goal is to establish interim Regional and National 
teams utilizing existing personnel within FEMA. The IMATs will be led 
by a credentialed Federal Coordinating Officer (FCO). Our short-term 
plan is to, at a minimum, stand-up one fully operational interim 
National IMAT and one fully operational interim Regional IMAT by June 
30, 2007. The interim teams will form the nucleus of FEMA's next 
generation of emergency response personnel until we hire and train 
personnel to staff permanent teams. Our longer-term plan is to have one 
permanent National IMAT and three permanent Regional dedicated IMATs by 
September 30, 2007.

CONCLUSION
    We are taking FEMA in a new direction, one that reflects a broader 
mission challenge, a wider set of partners, and a greater depth of 
mission perspective. The new FEMA will require new skill sets, a 
greater investment in our people, and new tools to ensure more 
effective response, recovery and mitigation. We will be more engaged in 
operational planning to improve the capabilities of our disaster 
response teams, work proactively and collaboratively with our Federal, 
State, local, tribal, and private sector partners, and always maintain 
focus on our core mission to protect the American people.
    Thank you for your time today and I look forward to answering your 
questions.

    Mr. Cuellar. Mr. Powers, thank you for your testimony.
    I now recognize Mr. Devir to summarize your statement for 5 
minutes.

  STATEMENT OF WILLIAM L. DEVIR, COMMANDER, DISASTER MEDICAL 
                     ASSISTANCE TEAM OHIO-5

    Mr. Devir. Mr. Chairman, Congressman Dent, and members of 
the subcommittee, I would like to take this opportunity to 
speak to you on behalf of the team commanders and the 
approximately 8,000 professionals who comprise the 107 response 
teams of the national disaster medical system.
    You have asked me to address the role of the disaster 
medical system team commanders and also the coordination of 
federal response teams with state and local operations. To put 
this in a global perspective, I gave you a copy of the 
assistant secretary for preparedness' response mission and 
vision statements, and also the NDMS statements, so you can see 
the role that NDMS plays within ASPR.
    A disaster medical assistance team, or DMAT, provides 
temporary medical care to the victims of disasters or public 
health emergencies. In addition to the standard team, which 
deploys as a 35-to 50-member unit, and is depicted in the slide 
picture that you have, specialized teams and equipment are also 
available to provide surgical capability, burn, pediatric, and 
mental health specialties, as well as teams that can operate in 
hazardous chem-bio environments.
    While DMATs comprise the greatest share of the response 
teams, NDMS is significantly broader in its overall 
capabilities. The slide with the dog shows a veterinary medical 
assistance team, or VMAT. VMAT supports states in the care of 
animal victims of disasters, but they are also invaluable 
resources to the DMATs because they are specialists in zoonotic 
diseases, the same diseases which represent the greatest threat 
to humans as potential biological weapons.
    Disaster mortuary operational response teams, or DMORTs, 
provide disaster portable morgue units, forensic specialists, 
and family assistance personnel to assist local medical 
examiners in working with the victims of mass fatality 
incidents and their families. While the teams came from a 
number of origins across the country, NDMS has been able to 
mold these teams so that they are uniform in their composition, 
equipment, credentialing and resource typing.
    Today, team members are appointed as federal intermittent 
employees, and these appointments provide the process to 
validate and maintain professional credentials, and also give 
support for the extensive day-to-day team operations of 
training and maintaining the specialized equipment that the 
teams deploy with. Another key benefit of this appointment is 
that it provides the members with USERRA rights at a time of 
deployment.
    In response to your specific questions, the role of the 
DMAT commander has several key elements. The first is serving 
as the manager responsible for these intermittent government 
employees and the federal property entrusted to them, but also 
in representing NDMS in the local community. Occupying a public 
or private professional position in the local community is key 
because this local private position that they have is their 
primary occupation. Sometimes it can be both complementary and 
competitive to their role as a team commander.
    If they have a disaster in their community, they are 
certainly called on to be a participant in their regular job. 
But this is, in fact, the rationale of the NDMS response teams: 
the ability to bring in outside resources to a community at a 
time when they are under duress because of the stress of having 
their own disaster.
    When deployed to a disaster, NDMS response teams truly 
demonstrate their expertise. In a response team deployment, 
they are going to be located near traditional medical care, 
self-sufficient for 3 days, and work within the national 
incident management system. This is key because when the local 
medical infrastructure comes back into operation, the team 
leadership then coordinates the demobilization of the teams 
with the incident command medical officer, HHS regional 
personnel in the area, and then they work in turn with the 
local, state and local health care officials to decide when it 
is best for the team to withdraw.
    Once in an assignment, the team is often positioned in 
locations where a hospital either formerly operated or where it 
is operating today, but the demands exceed what it can do. The 
slide that is provided with the patients on the litters is 
actually a shot of the New Orleans Airport during Hurricane 
Katrina, and one of the DMAT treatment areas that was set up 
inside.
    As a federal asset, the role of the NDMS response team, we 
have to come in and maintain control as we operate in the 
incident, but it is not our role to come in and take control of 
the incident. That is kind of an important distinction.
    I would like to address how the members of Congress can 
support us in our mission. The need for our services and the 
time that we put out over the last 5 years has significantly 
increased. Unfortunately, I can't say the same for our 
resources. In fact, our budget has remained flat for several 
years now. Looking forward, the new Pandemic and All-Hazards 
Preparedness Act actually adds additional tasks for us by 
calling for us to do specific planning for at-risk individuals, 
to include the medical reserve corps in our planning and 
exercises, and also to have additional training in NIMS and the 
national response plan.
    I know the fiscal year 2008 HHS budget calls for a modest 
$6 million increase in the NDMS budget. I have to say that in 
the shadow of some of the most significant disasters this 
country has ever witnessed, I think we are in a unique position 
to argue the value of this type of preparedness.
    We in the NDMS deal with citizens one at a time, whose 
daily lives have been shattered by a disaster, either as 
patients, victims or the affected family members. This provides 
us with a unique hands-on perspective on disaster medicine, and 
it provides the federal government with a very unusual personal 
role in their care. Providing the best care possible under 
austere conditions is our passion, and it is what drives us to 
prepare for the call. We are grateful for this opportunity to 
serve.
    Mr. Chairman, this concludes my testimony. I would like to 
thank you and the members of your subcommittee for your 
attention. I hope I have been able to provide you with a clear 
picture of the role and duties of an NDMS team commander, and I 
would be happy to answer any questions you might have later.
    Thanks.
    [The statement of Mr. Devir follows:]

                 Prepared Statement of William L. Devir

    Mr. Chairman, Congressman Dent, and Members of the Subcommittee:
    I would like to take this opportunity to speak to you on behalf of 
the team commanders and the approximately 8,000 professionals who 
comprise the 107 response teams of the National Disaster Medical System 
(NDMS). I hope to be able to convey to you in this short time the 
incredible amount of work and sacrifice these members put forth in 
their service to our nation, and specifically, to the citizens and 
their families impacted by disasters, both natural and man-made.
    You have asked me to address the role of Disaster Medical 
Assistance Team (DMAT) commanders and the coordination of the federal 
response teams with state and local operations. Much of what I will 
relay to you will be from the perspective of my own team's experiences, 
or the experiences that I have had working with the Management Support 
Team, a part of the NDMS Incident Command infrastructure that supports 
the teams when deployed in the field.
    Since 1979, I have served in the Fire Service and Emergency Medical 
Services. In my role as a Fire Department EMS Captain, I recognize the 
need for a disaster medical resource outside the immediate state and 
local community at the time of a major disaster. NDMS fills that unique 
niche with trained, equipped and uniformed disaster medicine 
specialists.
    I came to the position of DMAT commander 16 years ago, when the 
Office of Medical Readiness at Wright Patterson Air Force Base (WPAFB) 
in Fairborn, Ohio, came to the members of the Greater Miami Valley 
Emergency Medical Services Council with a request for our support in 
the formation of a Disaster Medical Assistance Team in the Dayton, 
Ohio, area. As a Federal Coordinating Center for NDMS, WPAFB was 
completing contingency planning in the face of thousands of potential 
military chemical casualties returning from the Desert Storm conflict. 
The reception and care of military patients is just one facet of NDMS, 
while the more common use of the teams has been in caring for civilian 
patients, animals, and the deceased following a major disaster. While 
DMATs comprise the greatest share of the response team assets, NDMS is 
significantly broader in its overall capabilities.
    DMATs provide temporary medical care to the victims of disasters or 
public health emergencies. In addition to the standard team, which 
deploys as a 35-40 member unit, specialized teams and equipment are 
available to provide surgical capability, as well as burn, pediatric, 
and mental health specialties, and even teams capable of providing care 
in hostile Chemical, Biological or Radiological environments.
    Veterinary Medical Assistance Teams (VMATs) support states in the 
care of animal victims of disasters. They are also an invaluable 
resource to DMATs, due to their expertise in the zoonotic diseases, 
which represent the greatest threat to humans as potential biological 
weapons.
    Disaster Mortuary Operational Response Teams (DMORTs) provide 
Disaster Portable Morgue Units (DPMU), forensic specialists, and family 
assistance personnel to assist local medical examiners in working with 
the victims of mass fatality incidents and their families.
    I have told you how DMAT OH-5 started, but if you study the 
response teams nationally you find a variety of origins that led to 
their development. Teams were started by university medical schools, as 
the result of a specific mass casualty incident in the community, or as 
part of a state's emergency management planning activity to name a few. 
Although teams have evolved from a variety of backgrounds, NDMS has 
molded the various teams to be uniform in their composition, equipment, 
credentialing and resource-typing.
    Under the early System, each individual deployment initiated a 
hiring process for team members, who were then terminated upon its 
completion. Today, team members are appointed as Federal Intermittent 
employees, essentially employees who are on the federal rolls ``on 
call,'' who then clock in at the beginning of an assignment and clock 
out when they return home. These intermittent appointments provide the 
process to validate and maintain professional credentials, but also 
allow for the extensive day-to-day team operations of training and 
maintaining specialized equipment to be able to deploy a team within 
hours of activation.
    The experience of my team and its development is unique, but it 
parallels that of other teams. Our initial challenge was the 
recruitment of medical professionals and support personnel to be able 
to field a team capable of providing medical care in an austere 
environment. With the support of the Greater Dayton Area Hospital 
Association, we were able to staff and train a core group, and most of 
them still remain as members of the team today. The Veterans Affairs 
Medical Center (VAMC) in Dayton provided guidance on obtaining surplus 
medical equipment through the Defense Reutilization and Marketing 
Service, and gave us access to VAMC facilities to both store our 
equipment and conduct exercises. When we achieved the requisite 
staffing and readiness, we became eligible for a federal cache of 
medical and logistical equipment. This brought with it its own 
challenges to be able to transport, store and maintain the equipment. 
Today, as an Operational DMAT, our team has three box trucks and a 
6,000 square foot warehouse where we keep our federal vehicles and 
equipment.
    The Committee's request for my testimony today asked about the role 
of the DMAT Commander, and how our services are coordinated with state 
and local operations.
    The role of the DMAT Commander has several key elements, including:
        <bullet> Serving as the manager responsible for intermittent 
        government employees under his/her command and the federal 
        property assigned to the team.
        <bullet> Representing NDMS in the local community; often 
        serving in a leadership role in disaster planning for public 
        health and broader emergency management functions.
        <bullet> Occupying a public or private professional position in 
        the local community: Emergency Physician, Registered Nurse, 
        Hospital Administrator or Emergency Services Officer.
    This latter local community role is the primary occupation of the 
team commander. This is important to keep in mind because the local 
position is both complementary and competitive to the role of team 
commander. Should a disaster or public health emergency occur locally, 
this individual more often that not has associated duties in that local 
community. This is in essence the reason for the NDMS Response Teams--
the ability to bring in outside medical resources to a community with 
insufficient local resources during a disaster. This is further 
complicated because many of the NDMS teams started as a local resource, 
and continue to play a role in state or local emergency management 
plans. The disaster medical resources of this nation are limited in 
nature. Participation of a team member in a local employer's disaster 
plan, in a state or local emergency management plan, and in an NDMS 
Response Team presents a confusing scenario when determining how many 
disaster medical personnel truly exist. An emergency planner must be 
careful not to count the same responder more than once.
    Because NDMS Response Teams often developed as a local resource, 
there is an associated local attitude of ``ownership,'' even though 
financial support and equipment is essentially federal. This has caused 
some states to turn to creating state disaster medical teams in order 
to maintain command and control over a local resource. Some of these 
teams then compete for the same medical professionals needed by a DMAT. 
Better coordination of the state and federal role of a team could 
minimize this duplication.
    When deployed to a disaster, NDMS Response Teams truly demonstrate 
their expertise. Teams follow an organized rotation schedule, and 
several times a year pre-plan a roster of available personnel to 
respond as needed to disasters. If a disaster occurs, they ``ramp up'' 
in anticipation, but wait for deployment orders to activate team 
members. Variables like distance, the medical services required, and 
whether an on call team is impacted by the incident combine to 
determine what teams are sent on a deployment. Some events like a 
hurricane provide a pre-planning timetable, with the ability to pre-
position teams in a response location close to the storm's landfall, 
but safe from the impact of the storm. In fact, significant NDMS 
resources were pre-positioned prior to the landfall of Hurricanes 
Katrina, Rita, and Wilma, then moved to the impacted areas as needs 
were identified and the travel routes cleared.
    Once in an assignment, the team is often positioned in a location 
where a hospital formerly operated, or where the demand for medical 
care exceeds what the local medical facility can provide. In a matter 
of hours, the DMAT sets up in a parking lot or standing structure, and 
starts to see patients. The team is designed to have sufficient 
logistical and medical supplies for up to 3 days. In these early hours 
and days, it is easy to define our role in medical care, as we are 
often the only option available. However, if and when the local 
community sees its infrastructure come back into operation, the team 
leadership works under the direction of the Incident Command Medical 
Officer and the HHS regional personnel, who in turn work with state and 
local officials to reach agreement when the team can withdraw. The team 
commander plays a key role in this decision, providing input on the 
number and acuity of patients seen, and what local alternative 
resources are available to treat patients. Incoming teams are often 
viewed as the ``cavalry,'' the federal response coming to the rescue in 
a disaster. Teams easily take charge in this environment of chaos 
because they bring discipline, training, and experience. The role of 
the NDMS Response Team, however, is to maintain control in the incident 
without taking control of the incident. The teams are a temporary 
supplement to that local community's healthcare system.
    Most of the committee members are no doubt aware of the shortage of 
medical personnel across the country. When the members of our teams 
leave for a deployment, hospitals and employers back home double-up 
shifts and fill in for those team members who are deployed. Although 
NDMS Response Team members enjoy USERRA coverage associated with their 
deployment, there can still be negative feelings back home, both with 
employers and the co-workers who cover their shifts. Hurricanes Katrina 
and Rita were especially challenging in this respect because of the 
multiple or extended deployments of team members. Team leadership is 
often faced with explaining to local employers why team members are 
being utilized, and reassuring those same employers that their 
employees' NDMS service is essential to the disaster response.
    While team members are deployed, family members go without hearing 
from their loved ones, and endure the associated media blitz detailing 
all the problems and dangers in the affected areas. This places stress 
on the family members, and needs to be addressed by the non-deployed 
team members with a family support structure. This was especially 
important for families during responses associated with the 9-11 
attacks.
    I would be remiss in my duty to my fellow team commanders, if I did 
not take this opportunity to tell the members of your committee how you 
can support us in our mission.
    Whether it be the response to the events of 9-11, the multiple 
hurricane responses of the 2004 and 2005 hurricane seasons, or the 
vigilant preparedness of our specialized Weapons of Mass Destruction 
response assets, the need for our services and the time and effort 
expended to improve our readiness have significantly increased over the 
past five years. Unfortunately, we have not seen our resources increase 
with these demands. The NDMS program budget specifically has remained 
flat since 2003. Looking forward, the Pandemic and All-Hazards 
Preparedness Act (P.L. 109-417) addresses new areas for which teams 
must prepare:
        <bullet> Specific planning for the ``at-risk individuals'' in a 
        disaster response.
        <bullet> Specific planning for inclusion of the Medical Reserve 
        Corps in coordinated response plans and exercises
        <bullet> Additional training of team members in the National 
        Response Plan and the National Incident Management System
    The recent Pets Evacuation and Transportation Standards Act of 2006 
will require VMATs to work with state governments and other national 
animal service agencies to define how disaster responses will 
coordinate veterinary and animal rescue efforts.
    I know that the FY 2008 DHHS budget request calls for a modest $6 
million increase in the NDMS budget. I can tell you from the 
perspective of the team commander that these funds and more are truly 
needed, and have the potential for a tremendous payback to the 
taxpayer. In the shadow of some of the most significant disasters this 
country has ever witnessed, I think we are in a unique position to 
argue the value of this type of preparedness.
    The additional provisions of the Pandemic and All-Hazards 
Preparedness Act are equally important with respect to their emphasis 
on local planning and preparedness. NDMS Team Commanders experience 
first-hand the ability to integrate operations in an impacted state 
where robust Department of Health and Emergency Management Agency 
disaster planning exist. Local preparation for known hazards is 
especially important for successful outcomes in the real event.
    We in NDMS are an unusual entity in the federal government, in that 
many of us deal with citizens, one at time, whose daily lives have been 
shattered, either as patients, victims, or affected family members. 
This provides us with a unique hands-on perspective in disaster 
medicine, and provides the federal government with an unusual personal 
role in their care. Providing the best care possible in these 
conditions is our passion, and it is what drives us to train and 
prepare for the call. We are grateful for the opportunity to serve.
    I thank you, Mr. Chairman, and the Members of your Subcommittee for 
your attention. I hope I have been able to provide you with a clear 
picture of the role and duties of an NDMS Team Commander.
    This concludes my testimony. I would be happy to answer your 
questions.

    Mr. Cuellar. Thank you, Mr. Devir, for your testimony.
    Now at this time I recognize Chief Prather to summarize 
your statement for 5 minutes.

  STATEMENT OF CHARLES ``CHIP'' PRATHER, CHIEF, ORANGE COUNTY 
                         FIRE AUTHORITY

    Chief Prather. Chairman Cuellar, Ranking Member Dent, 
members of the committee, I am Chip Prather, the fire chief of 
the Orange County Fire Authority. Thank you for this 
opportunity to address the committee.
    I also want to thank Congresswoman Sanchez for her role in 
pushing forward issues having to do with the urban search and 
rescue task force, and drafting and preparing a crucial piece 
of legislation that should be introduced later.
    My remarks this morning are on behalf of the Orange County 
Fire Authority, but more importantly, the local agencies that 
sponsor the 28 national urban search and rescue task forces 
located in 19 states. For several years, the 28 sponsoring 
agencies have been advocating for legislation that would 
authorize the task forces under FEMA and address an array of 
administrative issues. It is our hope that this morning we are 
taking a step forward in that goal.
    For the last 10 years, I have served as the fire chief of 
the OCFA which provides services to a population greater than 
that living in 12 states. My department has been a USAR-
sponsoring agency since 1991. Before being approached by FEMA 
to consider USAR, we and other major urban areas had begun to 
independently prepare for major building collapse and search 
and rescue operations.
    Because of that ready resource of highly trained 
firefighters, I believe most would agree with FEMA wisely 
choosing not to have an in-house rescue capability of its own. 
Instead, FEMA recognizes the best source of urban search and 
rescue knowledge and skill resides at the state and local 
level. Back then, not every local agency saw value in 
participating in this new federal initiative. Many saw USAR as 
a potentially costly burden where local agencies would be stuck 
with administering this new program and not receiving a 
commensurate value.
    On the other hand, 28 of us recognized that we and those 
that we serve would be better off with developing the 
personnel, training, skills and protocols to work together 
during a large-scale incident. In fact, in California we had 
just experienced the Loma Prieta earthquake and the collapse of 
the San Francisco Bay Bridge, where, by the way, it was my 
firefighters who traveled 300 miles to Northern California and 
rescued the last survivor from the I-80 collapse 89 hours after 
the earthquake.
    This ever-present earthquake risk and our intense 
preparation is likely part of the reason why FEMA saw fit to 
have eight of the 28 national task forces located in 
California. As I stated, FEMA appropriately recognized that 
local and state agencies have the expertise and knowledge upon 
which they could build to develop the premier national response 
system.
    The purpose of USAR is to have a ready and trained force so 
that the 6,000 participants may deploy to incidents across the 
nation within the FEMA-mandated 6-hour target. And they must be 
fully able to sustain themselves for 72 hours after they have 
arrived at the theater of operations.
    Again, let me emphasize, the urban search and rescue task 
forces act as a ready reserve team immediately available to 
respond at the direction of FEMA. Just like we see today in 
Kansas, with the deployment of Nebraska Task Force 1, we 
provide the first surge of personnel and equipment that comes 
in behind the local first responders to help and expand their 
capabilities.
    The vehicles and equipment caches are stored safely and 
secured, ready to respond at a moment's notice when called upon 
by FEMA and the federal government. In fact, because of the 
operational readiness requirements, we are prohibited by our 
agreement with FEMA from using those resources on the local 
level. That is not to say that us at the local level don't see 
value in being a member of the national response system. In 
large measure, our job is to develop the protocols and 
guidelines on how to handle various emergency scenarios.
    Quite often, we are working in multiple levels of 
government and with various agencies. Our participation in the 
system provides an opportunity to develop interoperable 
strategies and tactical plans with other agencies, resulting in 
a coordinated and effective response to those who we are trying 
to help. Of course, our firefighters are better trained because 
of our participation.
    So what are the needs of the urban search and rescue task 
forces? Well, I can probably point to our response to the 
Oklahoma City bombing, the 9/11 attacks, the Gulf Coast and New 
Orleans, where, by the way, members of my task force once again 
rescued the final survivor there. We are in constant need of 
improvements and ongoing support.
    Unfortunately, the last few years have seen a decrease in 
the levels of federal appropriations. The most recent 
appropriation of $25 million provides each task force with 
$700,000. According to a report by FEMA, it costs approximately 
$1.7 million annually to support a single task force in a full 
state of readiness. This leads these task forces with a $1 
million deficit, and requires the local agency to decide 
whether they are going to subsidize the federal program or fund 
their own local important needs.
    Therefore, I would respectfully urge Congress to 
appropriate the $45 million authorized for 2008 in last year's 
appropriations bill.
    Finally, the national response system needs to address 
certain administrative issues. That is why we are happy that 
the legislation that Congresswoman Sanchez is working on will 
be introduced, and hopefully if approved, will achieve the 
following. It authorizes the national USAR system and the 28 
task forces under our program within FEMA. It would allow FEMA 
to reimburse local agencies for our costs when there is a 
deployment, particularly in the area of workers compensation 
when a member is injured on a federal mission.
    It provides protection to our civilian members 
participating on the task force--our doctors, train operators, 
structural engineers, heavy riggers, dog handlers--from losing 
their private sector job when they are engaged in a federal 
deployment. It also establishes an advisory committee, and 
lastly and most importantly, it authorizes $52 million in 
funding for the system.
    I would be pleased to answer any questions.
    [The statement of Chief Prather follows:]

             Prepared Statement of Charles ``Chip'' Prather

Intro
    Thank you Chairman Cuellar, Ranking Member Charles Dent and members 
of the Subcommittee on Emergency Communications, Preparedness, and 
Response for this opportunity to discuss the federal government's 
capabilities to respond to national emergencies. I would also like to 
thank Congresswoman Sanchez for her role in pushing forward the issues 
of the USAR task forces and introducing crucial legislation, HR ------
----.
    I'm speaking here on behalf of the Orange County Fire Authority and 
on behalf of all agencies that sponsor one of the twenty eight National 
Urban Search and Rescue Task Forces. For several years the 28 
sponsoring agencies have been advocating for legislation that will 
authorize the Task Forces under FEMA, address administrative issues and 
provide stable funding. It is our hope that we are taking a step 
forward in realizing these goals today.
    I have had the privilege since 1997 of serving as the Fire Chief 
for Orange County Fire Authority and overseeing the protection of the 
1.3 million residents that live in the 22 cities and unincorporated 
portions of Orange County. In addition to providing basic fire and 
emergency medical service to our residents and businesses, we also have 
within Orange County major tourist attractions such as Disneyland, 
Knott's Berry Farm and Angel Stadium along with the Ports of Long Beach 
and Los Angeles immediately to our north and the San Onofre Nuclear 
Power Plant directly to the south. As with almost all of California we 
also face the threat of a major earthquake. Undoubtedly this has 
contributed to our belief in maintaining a prepared and well trained 
cadre of individuals to be a part of the National Urban Search and 
Rescue System.

USAR Background
    Orange County Fire Authority has been a USAR sponsoring agency 
since 1990. Before being approached by FEMA, we and other major urban 
areas had begun to prepare for major building collapses and search and 
rescue operations. Local agencies were well suited to provide personnel 
with a high level of training that lent itself naturally to the 
specialized skills needed to serve as a member of a USAR Task Force. I 
believe most would agree with FEMA wisely choosing not to have an in-
house rescue capability of its own to administer and operate on a daily 
basis for the sake of responding to the occasional national emergency 
incident. Instead, FEMA recognized that the best sources for urban 
search and rescue knowledge and skills resided at the State and local 
levels.
    Back then, local agencies were not sure how to approach this new 
effort and not every local agency saw value in participating in this 
new federal response capability. Many saw USAR as a potentially costly 
burden where local agencies would be stuck with administering this new 
program and not receiving commensurate value. Some of us recognized, 
though, overall we would be better off with developing the personnel, 
training, skills and protocols to work together during a large 
emergency incident. In fact, in California we had just experienced the 
Loma Prieta earthquake and the collapse of the San Francisco Bay 
Bridge. We knew the consequences of not being prepared and trained for 
large urban emergencies requiring specialized resources from outside 
the immediate capabilities of local agencies.
    This is likely part of why FEMA saw fit to have 8 of the 28 
National Task Forces located in California. We had been focused on 
earthquake preparedness for decades and were well suited to see the 
value in having our personnel trained and cooperating with, not just 
each other, but with federal resources to develop a sophisticated 
response capability.
    As a large agency comprised of over 800 safety personnel, we have 
the resources and ability to make those personnel available for 
extended deployments responding to large scale national incidents. 
However, we must still rely on assistance from other agencies such as 
the Anaheim Fire Department, Santa Ana Fire Department, Orange Fire 
Department, LA County Sheriffs and Montebello Fire to fully staff USAR 
Task Force 5. In fact, almost all sponsoring agencies rely upon 
assistance from other public agencies or other organizations to staff 
the 210 positions of a USAR Task Force.
    As I state above, FEMA wisely recognized that local and state 
agencies had the expertise and knowledge upon which they could build to 
develop a national response system. Until this time, the federal 
government had limited response capabilities. The national guard was 
available to provide manpower and security during and after incidents 
but was not trained or equipped to conduct search and rescue in 
specialized settings, such as a building collapse or massive WMD 
exposure.
    Local and state agencies, however, had experience dealing with 
hazardous material exposures, earthquake and hurricane related building 
collapses and mass casualty incidents that require planning and 
logistics training. To some degree, whether a building collapses due to 
natural causes or by acts of terrorism, the response is the same. One 
obvious modification would be the additional use of WMDs in a building 
collapses but, again, our training for hazardous material spills 
provides some background in the specialized training needed for those 
potential incidents.
    Locally, the value of the USAR Task Forces isn't that we are given 
equipment and resources that can be used to supplement local resources. 
Nothing could be further from the truth. I cannot stress this point 
enough as it seems to be a recurring misconception by many who have 
written reports that the task forces and their equipment supplement 
local response capabilities.
    The purpose of the USAR Task Forces is to be ready and trained so 
that they may deploy to incidents across the country within the FEMA 
mandated six hours after activation. They must be able to sustain 
themselves for the first 72 hours of operation. None of this would be 
possible if the sponsoring agencies were using the equipment and 
materials on a daily basis for their local responses.
    Let me speak to the specific arrangement of OCFA's USAR Task Force-
5. In our possession are the following pieces of apparatus:
        <bullet> Two tractors & 53 foot trailers
        <bullet> 2 Box Trucks
        <bullet> Suburban and pick-up trucks
        <bullet> Forklifts
        <bullet> 2 utility vehicles
        <bullet> 1 flatbed trailer
    These vehicles are packed and ready with specialized equipment 
purchased with FEMA grant funds or provided directly by FEMA. In Orange 
County, these assets are stored throughout 5 fire stations, where we 
oversee the logistics and maintenance of the equipment so that it is 
ready to deploy at a moment's notice. Again, let me emphasize that the 
USAR Task Forces act as a ``ready reserve'' team available immediately 
to respond at the direction of FEMA. We provide the first surge of 
personnel and equipment that comes in behind the local first responders 
to help and expand their capabilities. The vehicles and equipment are 
not being used by local agencies to respond to local EMS calls, fires 
or other day to day emergency incidents. The vehicles and equipment 
caches are being stored safely and securely ready to respond on behalf 
of FEMA and the federal government.
    In fact, we are prohibited by our agreements with FEMA from using 
the cache equipment unless sanctioned by FEMA such as in a training 
exercise. Moreover, when some suggest that the Task Forces are 
supplementing local responsibilities, it is important to remember that 
a Task Force would not respond to a national emergency in their own 
backyard. The Task Forces are comprised of first responders from local 
agencies and those persons would be otherwise occupied and committed to 
the incident. For example, during the attacks on the World Trade 
Center, some of the firefighters that comprised NY Task Force-1 were 
those individuals that were running into the towers during their 
collapse. Those individuals were engaged in the immediate response and 
it is the other task forces from throughout the country that were 
looked on to come in and provide support. Consequently, in case of a 
large earthquake or other disaster in Southern California, we would 
rely upon the Northern California Task Forces and other out of state 
Task Forces to respond and assist us.
    This is not to say that local agencies see little value from the 
resources provided via our participation in the National USAR System. A 
large part of our job is developing protocols and guidelines for how to 
handle various emergency scenarios. Quite often, we are working across 
multiple jurisdictions and with various agencies. Our participation in 
the National USAR System provides an opportunity to develop a 
fellowship and cooperative understanding with other agencies. The 
benefits of this relationship extend to FEMA and other federal 
agencies. Local agencies feel a greater level of comfort and trust when 
they realize that they are receiving assistance from fellow local first 
responders.
    Lastly, local agencies receive immense value in providing higher 
levels of training to their personnel. This training is brought back to 
the local level and spreads to other local and regional agencies. In 
fact, there are a number of regional and state teams across the country 
that have organized themselves and modeled their training and protocols 
on what FEMA and the 28 Task Forces have adopted.

USAR System Needs
    While I can proudly point to our response to the Northridge 
Earthquake, Atlanta Olympic Games, Oklahoma Bombing, Shuttle Columbia, 
the attacks of 9/11, and 21 hurricanes including Hurricane Katrina, we 
are in need of continued and ongoing improvement.
    Unfortunately, the last few years we have seen decreasing levels of 
federal appropriations. The most recent appropriation of $25 million 
provided each task force with about $700,000. According to FEMA, it 
costs approximately $1.7 million annually to maintain a Task Force. 
That amount does not take into account responding to incidents, which 
are funded separately, only the cost or training and maintaining 
equipment.
    This leaves each task force with a $1 million deficit. As I stated 
previously, these resources and equipment are not used for local 
emergency responses. This means a local agency must choose to subsidize 
a program that ostensibly provides the federal government with a 
response capability or to fund other local needs such as training, 
equipment, vehicles or facilities that can be used for local day to day 
emergency responses.
    Therefore, I respectfully urge Congress to appropriate the $45 
million authorized for 2008 in last year's appropriations bill.
    Finally, the National USAR System needs to address various 
administrative and program issues. That is why I am excited about the 
legislation that Congresswoman Sanchez has introduced which will 
achieve the following:
        1. Authorize the National USAR System and 28 Task Forces as a 
        program under FEMA and allows activation for pre-staging and 
        training activities. Currently, the Task Forces may only be 
        activated during a Presidential declared emergency.
        2. Protect task force members and sponsoring agencies by 
        allowing FEMA to reimburse for costs associated with 
        deployment. Specifically, members and sponsors need to be fully 
        reimbursed for costs associated with workers compensation and 
        health claims arising from a member's injury on a federal 
        mission.
        3. Protects civilian members of the US&R System (non-uniformed 
        personnel such as physicians, structural engineers, and canine 
        handlers) from employment discrimination and retaliation for 
        engaging in federal US&R activities. For example, we faced this 
        situation when one of our heavy riggers, Don Childress, faced 
        termination from his civilian employer if he chose to respond 
        with us to New Orleans. Fortunately for us, Don came but he did 
        lose his job.
        4. Establish a standing advisory committee comprised of 
        sponsoring agency representatives, technical experts and 
        emergency response professionals to advise FEMA and DHS 
        regarding matters affecting the National USAR System.
        5. Lastly, yet most importantly authorize $52 million in 
        appropriations to fully fund the system.
    Again, I can not stress how important it is to provide stable 
funding so that the Task Forces are secure in knowing that they can 
expend current year funds without the risk of acquiring equipment or 
hiring personnel that will not be funded in following years.
    I hope my testimony and information provided will assist the 
committee in moving forward our legislation and also in your broader 
deliberations regarding national response capabilities. Thank you again 
Chairman Cuellar, Ranking Member Charles Dent and members of the 
committee for your time.
[Attachment follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Cuellar. Thank you for your testimony, Chief.
    At this time, I will recognize Chief Endrikat to summarize 
your testimony for 5 minutes.
    Your fellow chief just took 1 minute of your time. No, I am 
just kidding.
    [Laughter.]
    Chief Endrikat. He is higher ranking than I am.
    Mr. Cuellar. If he is higher ranking, he can have that 
extra minute.

     STATEMENT OF FRED ENDRIKAT, SPECIAL OPERATIONS CHIEF, 
                  PHILADELPHIA FIRE DEPARTMENT

    Chief Endrikat. Thank you, Chairman Cuellar, Ranking Member 
Dent, and distinguished members of the subcommittee, for this 
opportunity to discuss the capabilities of federal emergency 
response teams.
    I am speaking today as a first responder, but I also have 
the responsibility and privilege to speak on behalf of the 
nearly 6,000 members of the Federal Emergency Management 
Agency's urban search and rescue national response system.
    In 1990, following the federal government's responses to 
the disasters of Hurricane Hugo and the Loma Prieta earthquake, 
Congress tasked FEMA to develop a national civilian urban 
search and rescue capability. The primary purpose of this 
system is to provide a nationwide network of heavy search and 
rescue teams that can be rapidly deployed to disaster 
incidents.
    The individual teams are established at the local 
jurisdiction level and can be federalized and deployed by FEMA 
as needed for nationwide response in order to augment state and 
local resources in disaster situations. The 28 USAR task forces 
are the fundamental units of FEMA's national response system 
and they are strategically located throughout the country.
    The FEMA response system also provides an overhead 
management capability for field operations known as the 
incident support team. This team provides federal, state and 
local officials with technical assistance in the acquisition 
and utilization of federal USAR resources through advice, 
incident command assistance, management, and coordination of 
the USAR task forces.
    The system has played an essential role in the federal 
response to terrorist attacks. Eleven task forces and one 
management team took part in the federal response to the 
bombing of the Alfred R. Murrah Building in Oklahoma City, and 
25 task forces and two of the standing management teams took 
part in the response to the attacks on the World Trade Center 
and the Pentagon on September 11.
    During the response to Hurricane Katrina in 2005, all 28 of 
the task forces were activated, with 10 being activated a 
second time for the extended operations encountered. These USAR 
task forces were credited with the search of thousands of homes 
and buildings, and the rescue of 6,587 victims. As Chief 
Prather mentioned, as we speak today, Nebraska Task Force 1 and 
the FEMA USAR incident support team are operating in support of 
state and local responders at the site of the devastating 
tornado that struck Greensburg, Kansas over the weekend.
    Regardless of the triggering mechanism that causes a 
disaster, the FEMA USAR system has been built with a foundation 
on the concept of all-hazard response and preparedness. This 
program has also been at the forefront of the implementation 
and field use of incident command structures at incidents of 
national significance, which was referenced in last year's FEMA 
post-Katrina reform legislation.
    One of the demonstrated strengths of the national USAR 
system has been the ability to coordinate state and local USAR 
assets and quickly fold them into field operations at disaster 
sites at the request of the local authorities having 
jurisdiction. New Jersey Task Force 1 and Puerto Rico Task 
Force 1 were deployed to the World Trade Center collapse on 
September 11. Both of those task forces stayed alongside FEMA 
task forces at the base of operations located at the Javits 
Convention Center.
    Neither team was or is a part of the FEMA USAR system. They 
technically did not come under the command and control of the 
FEMA USAR incident support team, but at the request of the Fire 
Department of New York, the IST effectively coordinated their 
operations.
    State and local rescue teams have realized that FEMA has 
developed the best practices model and that model has willingly 
been shared as far as policies, procedures, training curricula, 
and technical expertise in an outreach effort by FEMA USAR to 
first-, second-and third-tier emergency management response 
elements.
    There are a number of challenges currently before our 
system. The system currently operates under authority drawn 
from different sections of the Stafford Act, and the system 
response elements can only be activated during a presidential 
emergency declaration. As the chief mentioned, annual funding 
amounts to build and sustain the program have varied widely 
since the program's inception. Currently right now, each task 
force is faced with an approximate $1 million deficit, and a 
lot of that is made up by corresponding soft cost contributions 
from sponsoring and participating agencies.
    The system has been functioning without an advisory 
committee, and the rechartering, re-seating and active 
participation of the advisory committee is extremely important 
for the continued development of the system. Our ability to 
utilize real-time satellite imagery and sophisticated mapping 
technology provided by the National Geospatial Intelligence 
Agency in the field in the response to Hurricane Katrina in 
Mississippi made a significant difference in our search for 
buried victims.
    Time and funding must be dedicated to continue initiatives 
like this, as we significantly attempt to advance our 
operational capabilities with the introduction of new 
technology. The maintenance and new technology upgrades of our 
original WMD equipment cache that was issued to each task force 
after the September 11 attacks requires significant and stable 
funding that is currently not identified.
    Each federal task force consistently undergoes several 
methods of evaluation, readiness and each task force must 
submit a self-evaluation and undergo operational readiness 
evaluations periodically. We also undergo audits by the Office 
of Inspector General.
    They have also illustrated the fact that in these different 
evaluations that it is impossible for task forces to attain the 
highest levels the program requires without proper program 
office staffing, adequate sustained funding, and an increased 
focused emphasis on training initiatives.
    The FEMA USAR system has not reached its full potential. 
Specific legislative authorization and sustained adequate and 
recurring funding for the FEMA USAR system remains one of the 
larger missing pieces of the puzzle of homeland security. In 
effect, the nation has a proven ready reserve force of nearly 
6,000 highly trained specialists capable of immediate response 
to any type of incident, with an annual current cost to the 
federal government of approximately only $4,000 per member. 
This program is a proven outstanding example of cost-effective 
cooperation between all levels of government.
    I would like to thank committee Chair Cuellar, Ranking 
Member Dent, and the distinguished members of the subcommittee 
for the privilege of appearing before you today.
    [The statement of Chief Endrikat follows:]

                  Prepared Statement of Fred Endrikat

    Thank you Chairman Cuellar, Ranking Member Dent, and distinguished 
members of the Subcommittee on Emergency Communications, Preparedness, 
and Response for this opportunity to discuss the capabilities of 
Federal Emergency Response Teams.
    By way of introduction, I am Fred Endrikat; I have been a 
Philadelphia firefighter for 32 years, and I am currently assigned as 
the Special Operations Chief for the Philadelphia Fire Department's 
Special Operations Command. I also serve the Federal Emergency 
Management Agency (FEMA) Urban Search & Rescue (US&R) National Response 
System in concurrent duty assignments as the National Task Force 
Leader's Representative, Incident Support Team Operations Chief, and 
Task Force Leader for Pennsylvania Task Force 1.
    I have served in various capacities at the local, state, and 
federal levels in disaster response operations, including a 40-day 
field assignment as the FEMA US&R Incident Support Team Operations 
Chief at the September 11th attack and collapse of the World Trade 
Center in New York City and a 30-day field assignment as the FEMA US&R 
Incident Support Team Operations Chief for Hurricane Katrina 
(Mississippi theater of operations) and Hurricane Rita.
    I am speaking today as a first responder, but I also have the 
responsibility and privilege to speak on behalf of the nearly 6,000 
members of the Federal Emergency Management Agency's Urban Search & 
Rescue National Response System.

Background
    Similar to the rapid advances and extensive development of 
emergency medical services and hazardous materials response 
capabilities during the 1970's and 1980's, the field of technical 
rescue has seen significant improvement in terms of organization and 
training during the 1990's through today. New performance standards and 
accompanying training and legislative initiatives for technical rescue 
operations have recently been developed and teams have been assembled 
with all of the capabilities that are needed for the most complex and 
challenging incidents. The Federal Emergency Management Agency's Urban 
Search & Rescue National Response System is the product of these 
efforts.
    In 1990, following the Federal Government's responses to the 
disasters of Hurricane Hugo and the Loma Prieta earthquake, Congress 
tasked the Federal Emergency Management Agency (FEMA) to develop a 
national civilian urban search & rescue capability. Several advanced 
Urban Search & Rescue teams had already been developed by individual 
fire departments and within regions where special risks had been 
recognized, such as California with its well-known earthquake 
potential. FEMA, with support from federal, state, and local 
authorities, fire departments, the nation's top technical rescue 
specialists, and other interested groups, developed the Urban Search & 
Rescue (US&R) National Response System.
    As you are aware, during a disaster, the Federal Government 
implements the National Response Plan to provide state and local 
government with technical expertise, equipment, and other resources. 
These resources are provided by one or more federal agencies. The 
primary agency responsible for Urban Search & Rescue is FEMA, under 
Emergency Support Function 9 (ESF 9) of the National Response Plan.
    The primary purpose of this system is to provide a nationwide 
network of heavy search and rescue teams that can be rapidly deployed 
to disaster incidents. The individual teams are established at the 
local-jurisdiction level and can be federalized and deployed by FEMA as 
needed for nationwide response. The US&R teams provide an organized 
system of resources to locate, extricate, and provide immediate medical 
treatment to victims trapped in collapsed structures and to conduct 
other life-saving operations. The US&R National Response System is 
responsible for the coordination, development, and maintenance of the 
Federal effort in providing these resources to augment state and local 
resources in disaster situations.
    The twenty-eight Urban Search & Rescue (US&R) Task Forces are the 
fundamental units of FEMA's national response system, and are 
strategically located throughout the country. Each Task Force is 
sponsored by a State or local government jurisdiction and deploys with 
technical specialists who are divided into management and operational 
elements. FEMA has the ability to deploy the Task Forces in one of two 
operational configurations: as a Type I Task Force with 70 personnel 
(with a full equipment cache that includes specialized Weapons of Mass 
Destruction capabilities), or as a Type III Task Force with 28 
personnel (with a modified smaller equipment cache) that is primarily 
designed to operate in weather-driven disasters such as hurricanes.
    To ensure the ability to deploy at any time with the required 
number of personnel, teams are staffed in all positions ``three-deep', 
and carry a total rostered personnel complement of two hundred and ten 
members. A significant number of the sponsoring agencies are municipal 
fire departments, and firefighters comprise the largest percentage of 
the rostered members within the system.
    The FEMA US&R National Response System also provides an overhead 
management capability for field operations known as the Incident 
Support Team (IST). The IST provides Federal, state, and local 
officials with technical assistance in the acquisition and utilization 
of Federal US&R resources through advice, incident command assistance, 
management, and coordination of US&R Task Forces, and obtaining 
logistical support. The FEMA US&R Program rosters three 21-member 
Incident Support Teams (the Red, White, and Blue teams). Each IST is on 
call one out of every three months, and members must be able to deploy 
within two hours of receiving their activation orders.

    Each Task Force maintains extensive capabilities within seven major 
functional elements.
        <bullet> Search Specialists utilize canines and technical 
        electronic search equipment to locate trapped victims.
        <bullet> Rescue Specialists are skilled in shoring operations, 
        lifting, and cutting and breaching all types of building 
        materials including structural steel and reinforced concrete to 
        extricate trapped victims.
        <bullet> Physicians and Medical Specialists (at the paramedic 
        or equivalent level) provide advanced life support capability 
        and pre-hospital and emergency care for Task Force members and 
        crush syndrome medicine and confined space medicine for rescued 
        victims. Cross-trained personnel
        <bullet> Rigging Specialists work in conjunction with heavy 
        equipment, such as large hydraulic cranes, to remove heavy 
        debris and expose collapse voids where victims are buried.
        <bullet> Structural Engineers (some of them firefighters also 
        licensed as professional engineers) perform structural 
        integrity assessments of structures in rescue operations.
        <bullet> Hazardous Materials Specialists and Technical 
        Information Specialists provide support to the overall search 
        and rescue mission including planning, hazards evaluation, 
        hazardous materials assessments in rescue operations, and 
        technical documentation.
        <bullet> Logistics Specialists support the overall search and 
        rescue mission by providing supplies, equipment, 
        communications, and transportation for the Task Force and 
        managing the mobilization and demobilization processes.
    In addition to having the above listed capabilities, Task Forces 
are structured to be able to operate under the following guidelines:
        <bullet> 24-hour around-the clock operations
        <bullet> Self-sufficiency for 72 hours
        <bullet> Report to the Point Of Departure within 4-6 hours of 
        activation, and to be able to deploy all personnel and the 
        entire equipment cache by ground or air (as required)
        <bullet> Cross-trained personnel
        <bullet> Standardized equipment and training
        <bullet> Standardized operating procedures
        <bullet> Operate under the Incident Command System (ICS)

Current Overview
    The US&R System has played an essential role in the federal 
response to terrorist attacks. Eleven of the then 25 Task Forces and 
one management team took part in the federal response to the bombing of 
the Alfred R. Murrah Building in Oklahoma City, Oklahoma, on April 19, 
1995, and 25 of the current 28 Task Forces and two of the current three 
standing management teams took part in the response to the attacks on 
the World Trade Center and the Pentagon on September 11, 2001.
    During the response to Hurricane Katrina in 2005, all 28 of the 
Task Forces were activated, with ten being activated a second time for 
the extended operations encountered. These US&R Task Forces were 
credited with the search of thousands of homes and buildings and the 
rescue of 6,587 victims. As evidenced by the FEMA US&R Program's 
response to Hurricanes Katrina and Rita and as highlighted by Secretary 
Chertoff in his Report to Congress last year, the FEMA US&R Program was 
one of the federal response entities, along with the United States 
Coast Guard, that was acknowledged for successful response operations.
    Regardless of the triggering mechanism that causes a disaster, the 
FEMA US&R System has been built with a foundation in the concept of 
``All-Hazard'' preparedness. This program has also been at the 
forefront of the implementation and field-use of Incident Command 
structures at incidents of national significance (which was referenced 
in last year's FEMA Post-Katrina reform legislation).
    One of the demonstrated strengths of the National US&R System has 
been the ability to coordinate state and local US&R assets and quickly 
fold them into field operations at disaster sites (at the request of 
the local Authorities Having Jurisdiction). New Jersey TF1 deployed to 
New York City to the attack and collapse of the World Trade Center on 
September 11, and Puerto Rico TF-1 deployed on September 13. Both Task 
Forces staged alongside FEMA Task Forces at the Javits Center Base of 
Operations. Neither team was, or is, part of the FEMA US&R National 
Response System, but both are modeled in a similar fashion to Federal 
Task Forces in the areas of personnel rostering and equipment, and 
training. They technically did not come under the command and control 
of the FEMA US&R Incident Support Team, but at the request of the Fire 
Department of New York, the IST effectively coordinated their 
operations.
    This positive interaction between the FEMA US&R Program and various 
levels of government is demonstrated not only during disaster 
operations, but also in the preparedness phase of emergency management. 
The benefit of the FEMA National US&R System to the first responder can 
be demonstrated by the fact that state, regional, and local first 
responders utilize the FEMA US&R National Response System's training 
curriculum, equipment standards, and policies as benchmarks in 
preparation for response to local emergencies. These rescue teams have 
realized that FEMA has developed a best-practices model that they have 
incorporated into their training and operations, and the National 
Program has willingly shared policies, procedures, training curricula 
and technical expertise in an outreach effort to first, second, and 
third tier emergency management response elements.
    The FEMA US&R National Response System is a proven response entity 
of the Federal government, and is available to provide immediate 
response to a terrorist attack or natural disasters. Since 1991, this 
system has responded to 28 major disasters, and has also been deployed 
to support 12 National Security Special events (to include Presidential 
Nominating Conventions, the 2002 Winter Olympics in Salt Lake City, the 
G-8 Summit, etc.).

Challenges
    FEMA currently operates the US&R System under authority drawn from 
different sections of the Stafford Act, and System response elements 
(Task Forces and Incident Support Teams) can only be activated during a 
Presidential emergency declaration.
    Annual funding amounts to build and sustain the program have varied 
widely since the program's inception. The current annual cost to 
maintain a Task Force in a state of readiness has been estimated by 
FEMA to be approximately $1.7.million. At the current level of funding, 
each Task Force is faced with an approximate $1 million deficit. A 
significant portion of this deficit is usually made up by Sponsoring 
Agencies and Participating Agencies who absorb both ``hard'' costs 
(such as the payment of vehicle insurance, maintenance, and operating 
costs), and ``soft'' costs (such as the payment of salaries for members 
to maintain specialized rescue skills during training exercises) 
related to Task Force expenses.
    The System has been functioning for many years without an Advisory 
Committee (historically comprised of members representing FEMA, 
Sponsoring Agency Chiefs, technical experts, labor officials, and 
emergency response professionals). In the past, the Advisory Committee 
has brought the diverse views of all stakeholders together and provided 
important guidance and a balanced viewpoint to FEMA with regard to the 
operation and administration of the US&R National Response System. The 
rechartering / reseating and active participation of the Advisory 
Committee is extremely important to the Sponsoring Agency Chiefs and 
US&R System participants.
    Time and funding must be dedicated to continue the development of 
working relationships with other agencies (such as the National Geo-
Spatial Intelligence Agency) and private partners in the science and 
technology research fields that will significantly advance our 
operational capabilities with the introduction of new technology.
    The maintenance and new technology upgrades of the original Weapons 
of Mass Destruction equipment cache that was issued to each Task Force 
after the September 11th, 2001 attacks requires significant and stable 
funding that is currently not identified.
    National US&R Task Forces are evaluated by several methods in 
relation to operational readiness parameters. Annually, each Task Force 
must submit a Self-Evaluation to the Program Office. Selected Task 
Forces are then identified for a Phase II Evaluation. These Operational 
Readiness Evaluations (where an Evaluation Team of Program Office staff 
and Peer Evaluators conduct a comprehensive on-site inspection and 
review of administrative policies, procedures and documentation, 
logistical readiness, training programs, financial record-keeping, and 
personnel files) are currently being conducted for six Task Forces each 
year. The System also undergoes periodic extensive audits by the Office 
of Inspector General. These various evaluation mechanisms have raised 
the bar of preparedness and readiness to the highest levels, but have 
also illustrated the fact that it is impossible for Task Forces to 
attain the highest levels this program requires without proper Program 
Office staffing, adequate sustained funding, and an increased focused 
emphasis on training initiatives.

Summary
    Despite the lessons we have learned from our nation's response to 
the attacks on the World Trade Center and the Pentagon, and despite our 
lessons learned from responses to events similar to the devastating 
hurricane season of 2004 and the response in 2005 to Hurricanes Katrina 
and Rita, the Federal Urban Search & Rescue System has not reached it's 
full potential.
    These responses have increased the urgency for us to continue to 
improve our skills and develop new technologies to mitigate complicated 
large-scale technical rescue / collapse situations. Specific 
legislative authorization and sustained adequate and recurring funding 
for the Federal Urban Search and Rescue System remains one of the 
larger missing pieces of the puzzle of homeland security.
    In effect, the nation has a proven ``ready reserve'' force of 
nearly 6,000 highly-trained specialists capable of immediate response 
to any type of incident, with an annual current cost to the federal 
government of approximately $4,000 per member. This program is an 
outstanding example of cost-effective cooperation between all levels of 
government. Legislation that is currently being introduced by 
Congresswoman Sanchez would consolidate the statutory authority for the 
System under the Stafford Act and would, among other things, for the 
first time, explicitly authorize the US&R System and address the 
funding uncertainties that this program faces every Fiscal Year. This 
legislation will ensure a strong federal Urban Search & Rescue response 
capability, with measurable benefits through all tiers of emergency 
response.
    Again I would like to thank Chairman Cuellar, Ranking Member Dent, 
and distinguished members of the Subcommittee for the privilege of 
appearing before you today.

    Mr. Cuellar. Thank you, Chief.
    I want to thank all of you all, members of the panel, for 
being here with us.
    At this point, members will now have an opportunity to ask 
our witnesses questions. I remind each member that he or she 
will have 5 minutes for the set of questions that he or she 
might have.
    I will now recognize myself for my set of questions.
    This question goes to both Chief Endrikat and Chief 
Prather. After the September 11, 2001 incident, Congress 
provided substantial increases to the urban search and rescue 
funding. Federal preparedness funding for the USAR reached a 
high of $65 million in fiscal year 2004, but fell to $30 
million in fiscal year 2005, and the amount later decreased to 
$20 million in fiscal year 2006.
    How has this decrease in funding impacted the efficiency of 
the deployed teams and the staffing levels of the work that you 
all have been doing?
    Chief Prather, I think you have the highest rank. Is that 
correct?
    Chief Prather. It is basically what I said in my remarks, 
sir. We need to choose whether we are going to fund our local 
needs or support this task force. We have chosen to try and 
balance that. There are a number of examples that we make do 
with what we have. An example is our task force is spread 
around in six different fire stations, as opposed to being in a 
single secure facility from which we can efficiently deploy.
    Many of the task forces are lacking in some of the 
administrative support to take care of the grant funds. 
Probably the biggest shortfall that we see is the ability to 
complete the required training and to acquire the adequate 
depth in our resources so that we can deploy and sustain that 
deployment.
    I think the strength of the system, in spite of the cyclic 
nature of the funding, is, as Chief Endrikat pointed out, you 
saw that all task forces, irrespective of the amount of funding 
that was available, were able to respond to the Gulf Coast and 
New Orleans. So the system works, but we are making it work.
    Mr. Cuellar. Thank you.
    Chief?
    Chief Endrikat. Mr. Chairman, maybe a word of background on 
the funding. The $60 million that was appropriated after the 
September 11 attacks, a good portion of that was earmarked 
toward building our capability and giving each task force the 
potential to be able to deploy two complete elements, so two 
task forces. And a lot of the funding was geared toward 
procuring a second equipment cache for the task forces.
    We are still in the process of that. That still requires 
some funding that possibly has not yet been identified. But the 
goal was to give us more depth at the federal level to be able 
to respond and support state and local authorities.
    As I mentioned, I think one of the benefits of this program 
is the level of cooperation between all levels of government. 
Based on what Chief Prather mentioned, we balance or we attempt 
to balance our local needs with being able to support the 
federal requirements and the federal mission. Our sponsoring 
organizations and our participating agencies end up absorbing a 
lot of this soft cost.
    For example, in Pennsylvania, we absorb the soft costs for 
our vehicle insurance, for our vehicle maintenance, for costs 
along those lines, simply because there is not enough budget 
money annually to go around and to fully keep the task force 
ready and prepared to respond for a federal mission.
    Mr. Cuellar. Okay. Thank you.
    A question to Dr. Devir. According to the 2005 House 
Government Reform report on NDMS, after-action reports 
following the 2004 hurricane season documented serious 
breakdowns in planning, supply management, communications, and 
leadership. Some problems included deployment of teams with 
inadequate supplies, lacking essential drugs and equipment.
    Do you feel these types of issues have been resolved, 
number one? And number two, does simply moving NDMS from FEMA 
back to the HHS solve all of the NDMS problems?
    Mr. Devir. I would like to thank you for my promotion to 
``doctor,'' but unfortunately I am just a ``mister.''
    Mr. Cuellar. Well, then we will call you ``honorable.''
    Mr. Devir. There you go. I like that. That is nice.
    [Laughter.]
    As far as the issues related to our response, you sort of 
have to separate the individual response from the nature of 
after-actions. I could probably bring out 10 after-action 
reports from different incidents, and I could blindfold you and 
read them to you, and you wouldn't know which was which, 
because typically the same issues come up--command and control 
issues, resupply, et cetera.
    In terms of have we made improvements, I think we certainly 
have. I know that while we were still positioned within FEMA, 
significant changes and improvements were made in the way 
logistical resupply was organized. Specifically, some of our 
folks on working groups that were actually in the field sat 
down and came up with plans that there would be automated 
resupply, instead of waiting for somebody to put through the 
purchase order and ask for additional supplies.
    We knew that if we were seeing a certain level acuity of 
patients in certain volumes that we would run out of certain 
medical supplies. So there was a system put in place that on 
the second day you would start shipping those supplies in, and 
on the third day you would start shipping additional supplies 
in. So that was a significant improvement.
    I know there was also some work to supply us with some 
additional communications equipment. I think we still need to 
do some work in that area, but the ability to add some 
satellite communications and infrastructure that was outside 
what you depend on locally that is typically going to be 
destroyed, certainly helped our response capability.
    As far as moving over to HHS, don't take this as a 
criticism of our cousins over in FEMA, but it is difficult to 
do some of the medical things when you are not in the medical 
community. Anybody that has gone to the doctor, you talk to 
your doctor about what is going on, and pretty soon in some 
sophisticated language, he has sort of left you in the dust 
unless he is an especially good communicator.
    We found that in resupply issues that a lot of times the 
folks that were sincerely trying to do a good job, they just 
didn't know the medical equipment or some of the medical 
supplies to be able to provide to us what it was we needed. So 
I think moving over to HHS, where we have specialized medical 
logistics, is certainly going to help us in that area.
    Mr. Cuellar. All right. Thank you.
    I have a question for Mr. Powers, but since my time is 
over, I will go ahead at this time and recognize the ranking 
member of the subcommittee, the gentleman from Pennsylvania, 
Mr. Dent, for any questions. I will come back in the second 
round and ask Mr. Powers some questions.
    Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Mr. Powers, it is my understanding that the national 
operations center has the capability to deploy disaster 
situational awareness teams. There are also emergency response 
teams that are managed or controlled by other federal agencies 
such as domestic emergency support teams and nuclear incident 
response teams.
    How many types of emergency response teams does FEMA have? 
And how do they relate to one another is really the big 
question?
    Mr. Powers. Let me begin from the very beginning of your 
questions, the DSAT team that the department has. The reason I 
am not answering your question directly is because we have a 
number of teams that I did not mention in my testimony as part 
of our recovery. There are a number of other things that we 
deploy. It is not just initial response. There are a good 
number of those.
    The DSAT team is a team that the secretary created after 
Katrina to provide better situational awareness for the 
department. Their purpose was to go on-scene and provide video 
and audio links of what was actually happening back to the 
Department of Homeland Security so that they did not have to 
rely on commercial media as their only news source of 
information.
    One of the things that we are intending to do with our 
incident management assist teams, the new teams that were 
created, is to provide them a situational awareness capability 
where they will be able to work with the state and local 
officials on-scene and provide situational awareness not just 
back to DHS, but also back to the local incident command and 
the state EOC and the regional FEMA offices, so that everyone 
will have the same information at the same time, so that we 
have a good understanding of what the situation is on-scene so 
we can apply the right resources to whatever the incident 
happens to be.
    Does that answer your question?
    Mr. Dent. Yes. I would like to further elaborate, though. 
Can you explain how it is not duplicative to have both FEMA and 
the national operations center deploy emergency response teams 
and domestic emergency response teams, respectively, at the 
same time? Why is that not duplicative, essentially?
    Mr. Powers. We are attempting to work together. We respect 
the wishes of the secretary to deploy situational awareness 
teams that he needs for his information. We are changing the 
way we do business, so we are in a position to provide that 
information directly to him if he needs it. If that meets his 
requirements, then I would expect that his teams will no longer 
be required.
    Mr. Dent. Thank you.
    Questions to Mr. Endrikat and Mr. Prather. Last year, DHS's 
Office of Inspector General issued an audit of the national 
urban search and rescue response system, USAR. This audit found 
that the USAR task forces were falling short of achieving the 
system's set objectives and that there were operational, 
logistical and management deficiencies. The audit also 
criticized FEMA for funding and staffing shortages that 
prevented proper monitoring and oversight of task forces.
    From your perspective, has FEMA taken steps to address 
these deficiencies? And how does FEMA strengthen its oversight 
and involvement with these task forces?
    Chief Endrikat. Congressman Dent, recently the FEMA program 
office in the area of program staffing was just authorized 
basically a doubling of staff. That is something that the 
sponsoring agency chiefs and the task forces have been 
supporting for years. So the national program office at FEMA 
headquarters, with this increase in staffing, should be able to 
give greater oversight and greater coordination and guidance to 
the 28 task forces in the field.
    The inspector general audits exposed a number of weaknesses 
in our system. I think a lot of those weaknesses are based on 
the high bar and the high standard that has been set. As I 
mentioned, we have self-evaluations. We have operational 
readiness evaluations.
    But I think the core issue here is that without adequate 
sustained recurring funding and guessing each year on how we 
are going to maintain programs and training programs and 
logistical requirements, it is really pretty much a guess each 
year what we are going to able to do in order to maintain that 
high level of readiness.
    Mr. Dent. Thank you.
    I see my time is up.
    Mr. Cuellar. No, go ahead.
    Mr. Dent. Mr. Prather, do you want to just quickly answer?
    Chief Prather. I would just echo what Chief Endrikat said. 
I think the increased staffing for FEMA and the use of our 
program will be of great help and enable us to roll this 
forward. They have had eight people in there--that is half of 
what I send to a single structure fire--responsible for 
managing the 6,000 people, not only on the administrative side, 
but also during the support. So we are very happy with that.
    Mr. Dent. Thank you.
    I yield back, Mr. Chairman.
    Mr. Cuellar. All right. Thank you, Mr. Dent.
    The chair would now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practices, I will recognize members who 
were present at the start of the hearing based on seniority on 
the subcommittee, alternating between the majority and 
minority. Those members coming in later will be recognized in 
the order of their arrival.
    Also, for the members who came in a little bit afterwards, 
we did grant Mr. Rodriguez, who is also part of the 
subcommittee on appropriations for the Department of Homeland 
Security. He also had a disaster in Eagle Pass in his district.
    So at this time, just so everybody knows the order we will 
be following, I will lean over to this side. Ms. Norton will go 
first. I will recognize her in a second. Ms. Christensen will 
go second. Mr. Etheridge, if he comes back, will go third. Ms. 
Lowey will go next, and then Mr. Rodriguez will go after that. 
If any other members come in, we will go ahead and put them in.
    So at this time, just so everybody knows the order that we 
are going, the chair recognizes for 5 minutes the gentlewoman 
from D.C., Ms. Norton, for her 5 minutes of questioning. Ms. 
Norton?
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Powers, one of the most serious issues in the catalog 
of problems from DHS following Katrina was the confusion and 
overlap between FEMA officials and DHS officials. Mr. Dent has 
alluded to some continuing overlap in his questions. One thing 
Katrina taught us was that essentially we were not prepared to 
respond to a WMD attack, because there should be no difference. 
The only difference is you don't get a weather forecast ahead 
of time telling you that an attack is coming, as we did with 
the hurricane.
    As I understand it, you worked as something called the 
``principal federal official'' during Hurricane Katrina. Is 
that not true?
    Mr. Powers. That is not true. I worked as the operational--
    Ms. Norton. You worked for the principal?
    Mr. Powers. I worked for the principal federal official 
during Hurricane Rita.
    Ms. Norton. Not during Hurricane Katrina?
    Mr. Powers. I did not work in Hurricane Katrina.
    Ms. Norton. Were you the so-called ``senior DHS official'' 
in Hurricane Wilma?
    Mr. Powers. That is correct.
    Ms. Norton. The principal federal official is, as I 
understand it, a Department of Homeland Security position. Is 
that the case?
    Mr. Powers. Yes, ma'am.
    Ms. Norton. The senior Department of Homeland Security 
official in Hurricane Wilma was also a DHS official. Is that 
right?
    Mr. Powers. That is correct.
    Ms. Norton. I would like to know what operational role 
these officials have--the principal federal officer, the senior 
DHS official--what operational role do these officials have 
that is not or could not be played by the federal coordinating 
official who is the lead official under the Stafford Act?
    Mr. Powers. You are correct. The federal coordinating 
officer is the primary federal official. We are all emergency 
management that is related to Stafford Act issues. The federal 
coordinating officer is the primary leader in the unified 
coordination group. He or she brings synergy to the federal 
agencies and is the person with the fiduciary responsibility, 
the FCO, the federal coordinating officer, as given under the 
Stafford Act.
    The role of the FCO complements the PFO. The PFO has three 
roles. First of all, he is the personal representative of the 
secretary of homeland security.
    Ms. Norton. Is not the federal coordinating official also 
the representative of the secretary?
    Mr. Powers. He is, but the principal federal official is 
the personal representative of the secretary.
    Ms. Norton. Is he paid more than the federal coordinating 
officer?
    Mr. Powers. It depends on the situation. They may or may 
not be.
    Ms. Norton. Why do you need two officials who apparently 
report to the secretary, when in fact that was precisely the 
kind of confusion that we was reported in Katrina? Now, you 
have somebody being paid at a time when this committee was 
asking about funding that is not available for WMD, for 
example, in post-9/11 task forces. We have senior officials 
over officials who report to the secretary.
    You need to explain to me who is in charge. If there is 
somebody who says ``I come from the secretary,'' and there is 
somebody else who says, ``I am the federal coordinating 
official,'' and I am in one of these areas which has just had a 
disaster, who is in charge?
    Mr. Powers. The person in charge for the federal response 
under the Stafford Act is the federal coordinating officer.
    Ms. Norton. So why do we need a highly paid senior DHS 
official and a highly paid principal federal official, 
alongside the federal coordinating officer, who is the only 
officer recognized by law--the only one recognized by law? And 
here I am sitting in Podunk, Nevada, or someplace--pardon me, 
Nevada--and these two people report. How am I to know who is 
really in charge? Or am I left to try to figure out who I 
should really relate to? What is the point?
    Mr. Powers. During an event, there are a lot of people who 
respond. There are a lot of agencies that respond. There are 
the state coordinating officers, federal coordinating officers. 
There is a senior law enforcement official who responds, who 
does not report to the FCO. And there are other people--
    Ms. Norton. I know what these other officials do. I am 
trying to find out what the principal federal official does. I 
understand who he reports to. I want to know what he does.
    Mr. Powers. He is the one who coordinates these groups of 
various disparate groups.
    Ms. Norton. That is now what the federal coordinating 
official does, although his word says that he is the 
coordinating official. That is what his title is.
    Mr. Powers. The way the national response plan is laid out, 
that is his title. I agree with you. But the role of the 
principal federal official is to coordinate all of the 
responders, all of the senior-level responders, kind of the 
chairman of the board, so to speak, and to get the teams to 
work together.
    Ms. Norton. Mr. Chairman, I just want to note for the 
record that I have tried in my other committee, which also has 
jurisdiction over FEMA, to find out why we have these 
overlapping officials. I am very seriously concerned. I mean 
it. If I am in some catastrophe and these two guys report and 
salute and say they are representing the secretary, I am 
seriously confused about who it is who is in charge. I have no 
reason to believe that the federal government ought to be 
paying for two people to be in charge post-Katrina.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, Ms. Norton.
    Can you follow up with the staff and let's see if we can 
try to answer this question at another time, maybe working with 
Ms. Norton, to see if we can sit down and try to get this down 
as soon as possible? If we can try to do it later on this week, 
it would be really good.
    Can you just send me a little note to say that you all have 
done the meeting? Okay. Thanks.
    At this time, the chair will recognize for 5 minutes the 
gentlewoman from the Virgin Islands, Ms. Christensen, for 5 
minutes of questions.
    Mrs. Christensen. Thank you, Mr. Chairman. Thank you for 
this hearing.
    My first question would be to Mr. Devir. You responded to 
Mr. Dent's question about the move back to the Department of 
Health and Human Services. If I remember correctly, during 
Hugo, that is where the DMAT team was to begin with. So it 
seems to me that that is where it properly belongs.
    My question is about the coordination now between HHS and 
DHS. Has that been exercised? Is that operationally seamless 
coordination between the two? It was back in 1989, but a lot of 
things have changed in FEMA since then.
    Mr. Devir. Yes, ma'am. It has been exercised. There is an 
additional point that impacts that. That is the fact that the 
assistant secretary for preparedness response in Health and 
Human Services is a new under secretary under law. That 
position has just been appointed, Admiral Vanderwagen, by the 
president.
    So you are talking about a move within an agency that is 
sort of going under a mini-reorganization, if you will. We are 
aware of the fact that we do have to identify how those folks 
will interface with one another. Going back to your point about 
Hugo, the medical response has always fallen under ESF-8. So as 
it relates to a medical need, the folks in Health and Human 
Services, working with local officials, determine that there is 
a need, FEMA had the overall responsibility for managing the 
incident, and HHS always had responsibility for serving the 
medical needs.
    So that coordination has been in place, and we see the same 
people in our meetings. They just may have a different name 
tag.
    Mrs. Christensen. Okay.
    Mr. Powers, I think it was in your testimony--actually, I 
was trying to find where I was reading about the type one or 
type two task forces. Is that in your testimony? Well, in one 
of the testimonies, the type one task force was described as 
having specialized weapons of mass destruction capabilities.
    I know in my district and other districts, we have the 
civil support teams of the National Guard that also have 
special weapons of mass destruction capabilities.
    I was wondering, are these two agencies duplicating each 
other? Is there an effort to make sure that their activities 
are coordinated? Or are they different? Are their 
responsibilities different?
    Mr. Powers. Let's just say that the capabilities of the 
National Guard complement the weapons of mass destruction 
capabilities of the USAR teams. The teams do joint training. We 
make sure that they complement, not compete, with one another 
because during that kind of an event, you probably never have 
enough resources and we need all the resources that we can 
muster.
    So the resources that the National Guard puts forward, the 
resources that area available in the active Army and the DOD, 
plus the resources that we have available in the USAR teams, 
all complement one another.
    Mrs. Christensen. I see Mr. Endrikat nodding. Let me ask 
the question to Mr. Endrikat and Mr. Prather, and you can 
respond to that question as well.
    Do any of these teams, the search and rescue teams, exist 
outside of fire departments? Are you aware of any that exist 
outside of fire departments? We have a rescue in each island in 
the Virgin Islands, and to me, they fulfill that role. I was 
just wondering if they would qualify to be one of these task 
forces, or must it be inside of fire services?
    Chief Endrikat. No, ma'am. Most of the 28 are sponsored 
primarily by fire agencies, but one example would be Texas A&M 
University sponsors Texas Task Force 1. In the past, New Mexico 
was sponsored by the University of New Mexico. So there are 
some other agencies. There are also some emergency management 
agencies at the state or local level that sponsor federal task 
forces, but primarily they are mostly fire-based.
    Mrs. Christensen. Did you want to add a response to the 
question about the civil support teams?
    Chief Endrikat. The WMD, I think in my written testimony, I 
spoke to the difference between the type one FEMA USAR task 
force and the type three FEMA USAR task force. The type one is 
the one with the weapons of mass destruction capability. I also 
referenced in my testimony that right now, we are about 5 years 
into the technological shelf-life of our WMD equipment. We are 
really struggling with how to maintain that capability in the 
state-of-the-art effective way, without sustained funding 
specifically dedicated for that.
    But as Mr. Power said, the civil support teams and the DOD 
teams that operate in a WMD arena, we do coordinate and we do 
have very similar roles as far as the assessment of the WMD 
event. I think our problem for all of our teams is how we 
mitigate and actually engage in hot zone operations. We are 
still defining that concept of operations across the board.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you very much.
    At this time, the chair will recognize for 5 minutes the 
gentlewoman from New York, Ms. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    Before I get to my questions, I want to mention an 
emergency response team in my district. In Westchester County, 
New York, a group of fire chiefs have formed a county-wide task 
force to better handle certain emergencies. Members of the task 
force including more than 75 firefighters, fire chiefs, have 
received specialized training, including trench and building 
collapse, mass casualty, HAZMAT, and WMD training.
    This has proven to be a tremendous success. The task force 
has responded to numerous emergencies in the community, and I 
have worked with them for several years to secure federal 
funds. Last year, a team from DHS went to Westchester to 
document the task force's work and they use it as a prototype 
to encourage other communities to develop their own teams.
    After personally seeing the success of our local task 
force, I am certainly appreciative of the work of all of our 
witnesses in urban search and rescue teams, and disaster 
medical assistance teams. I thank you.
    Mr. Prather explicitly stated in his testimony that USAR 
equipment is not used for everyday local events. The equipment 
purchased is set aside for appropriate emergency use only. What 
troubles me is that the federal government asks state and local 
public safety agencies to do this, at the same time that the 
administration has repeatedly proposed to cut funding for the 
program.
    Mr. Prather's testimony mentions that locals must pay $1 
million for the federal government's $700,000 contribution. The 
federal government reaps the benefit, but only pays 40 percent 
of the cost. As an appropriator, I frankly have been far too 
many examples of the department claiming that it fully supports 
a program, only to propose that funds are cut. This is 
unacceptable.
    I suggest this to Mr. Powers. Why has the administration 
proposed to cut funds for this program in recent years? And to 
the other members of the panel, how would increased funding 
assist your response to emergencies?
    Mr. Powers can begin, and then we can hear from the others.
    Mr. Powers. I will have to get back to you on the 
department perspective on that. I can answer from the program 
perspective, but not the department perspective.
    Mrs. Lowey. Okay. So you are not aware of cuts in the 
program?
    Mr. Powers. I know that the budget was submitted for $25 
million in 2008.
    Mrs. Lowey. Okay. Do you have an opinion about it?
    Mr. Powers. Pardon me?
    Mrs. Lowey. You want to get back to me. Okay.
    Do any of the others care to comment on the fact that the 
local share is so high?
    Chief Prather. I think your follow-up question was what 
would be the operational capability if we were fully funded? 
What difference would it make?
    Mrs. Lowey. Okay.
    Chief Prather. From my perspective, what would be different 
is our second cache would be completed. As Ranking Member Dent 
mentioned, the inspector general's report identified some areas 
where we were weak and still needed improvement.
    Much of that was based on the need for funds--the depth in 
training, the operational exercises, to conduct those, the 
readiness exercises, and a number of things that would 
basically strengthen the program and allow us to fully fund the 
federal program, as opposed to the locals having to do 
something with our money for the federal program.
    Mrs. Lowey. Before anyone else responds, let me throw out 
some other ideas directly related. When a team is deployed, 
there are backfill costs for those on the team who are first 
responders. If so, does FEMA reimburse public safety agencies 
for backfill costs? Perhaps you can respond?
    Chief Prather. Yes. The $1.7 million figure that we are 
talking about is the ongoing maintenance costs. It does not 
take into consideration the actual costs of response. When we 
respond, that is probably the place that we do get the full 
funding, not only for the cost of the deployment, but also for 
the backfill.
    One of the things that is a problem there, which would be 
addressed in the legislation Ms. Sanchez is considering 
introducing, would be the workers comp reimbursements.
    Mrs. Lowey. Did you want to respond? Yes?
    Chief Endrikat. I just wanted to echo what Chief Prather 
said. I think, Congresswoman, that one of the problems is that 
the funding varies so much year to year. I am not quite sure 
who suggested it or how we arrived at a fixed dollar amount, 
but what really suffers is our ability to fully prepare and be 
ready to go out the door.
    I think increased funding, the one main area that it would 
impact us and really benefit the citizens would be our ability 
to train the way we should train, and to certify our people the 
way they should be certified and credentialed.
    Mrs. Lowey. My red light is on, so I thank you, Mr. 
Chairman.
    Mr. Cuellar. Thank you, Ms. Lowey.
    At this time, the chair will recognize for 5 minutes the 
gentleman from Texas, Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much, Mr. Chairman. I want to 
thank you for allowing me this opportunity to ask a few 
questions and also make a few comments.
    Let me indicate to you that I had the opportunity to be a 
congressman in 1998, and in 2000 we had floods in San Antonio. 
The major cities like San Antonio can do the match, but little 
communities like Seguin, Brownsville and those areas have 
difficulty doing that. And so somehow we have to come up with a 
different response to be able for them to react and be able to 
compete with a major metropolitan area when the disaster hits 
them. I think that there is something that we need to do about 
that. I don't know what the answer is. Maybe you can come up 
with that.
    Secondly, is it correct to say that FEMA only responds 
after the request for assistance from the state is given? And 
is there anything proactive that FEMA can do, you know, right 
after the event or during the event? I want to ask a second 
question also, and then I want you to keep that in mind, Mr. 
Powers.
    The second question is, after a disaster occurs, it is my 
understanding that infrastructure and personal damage 
assessments are conducted in order to gauge the extent of the 
damage. These are assessments that sometimes take days or 
weeks. Is there any assistance that FEMA could provide while 
the assessments are being conducted?
    I just went through another disaster in Eagle Pass. As far 
as I am concerned, it took too long to respond. I, prior to 
being here, had experienced a disaster that occurred in El Paso 
during a flood, and that took too long to respond. I want to 
just give you an embarrassing situation. Ten people lost their 
lives in the tornado, three in Mexico and seven in the U.S., 
there in Eagle Pass.
    I had gone to Mexico because the military had come to San 
Antonio when we had some 20,000 people from Katrina, and they 
had come in to feed some of the people there, and they stayed a 
pretty good long time there in San Antonio feeding them. So I 
went and paid my respects to some of the people in Guerra 
Negros, because they actually got hit hard.
    I am here to tell you, I was impressed with them. They had 
doctors on the field. They had a pharmacy there. They were 
given tetanus shots. They had mobile units doing X-rays. They 
were cleaning. They finished up and it was worse on that site. 
After 7 days, my judge down there and my mayor calls me and 
tell me that the state of Cohilla just asked if they could come 
and help us. Our president hadn't moved yet.
    And it wasn't because we hadn't asked, because the governor 
had asked. Senator Hutchison had asked. Senator Cornyn had 
asked. I had asked. We had sent letters. I had personally 
handed a letter to the president on Thursday, and the accident 
occurred on Monday. And we still couldn't get a reaction.
    I want you to know those people read the paper on both 
sides. They know how they responded on the other side, and on 
this side, what we were still hearing was--and this is the 
frustration part of it--I go there Thursday after the votes, 3 
days later, the response is these kind of arguments: ``Well, 
don't clean up your area because it is going to reflect on your 
insurance. No, you cannot pick up that stuff because you are 
not going to get reimbursed by FEMA.''
    Don't quote me on this. It might be Red Cross. It could be 
the Salvation Army. ``Don't accept any money for anything 
because that is going to be deducted``--those kind of stuff 
going on, when there are people that were in need, and 
everybody was over here, and the accident occurred over here.
    And so if you could respond to those two comments, I would 
appreciate it.
    Mr. Powers. The first question on the lack of response. The 
Stafford Act requires us to follow certain protocols, which we 
attempt to do. FEMA has tried very hard over the last 6 months 
to assume a much more proactive posture. In some cases, we have 
provided commodities, as we call them, support things before a 
disaster is declared. But when we do that, we ask the state to 
sign an agreement, to say that if a disaster has not occurred, 
that they will either reimburse us for the cost of those 
materials or will replace them in-kind.
    I don't know the particulars of the incident that you are 
describing in that particular piece. As far as working with the 
state, for example Eagle Pass, the incident occurred around the 
25th of April, I think. We had a FEMA person physically with 
the state on the 26th. We started the damage assessments on the 
26th. We have to do those with the state. We cannot do those by 
ourselves. It has to be a joint thing.
    So many times we are finding that, and I don't know if it 
was the case at Eagle Pass, but the states are not ready as 
quickly as we are ready to do the--
    Mr. Rodriguez. You are right. Mr. Chairman, it is a real 
problem. In this case, we had a good mayor and a good judge, 
and actually a governor that declared it early. But if the 
ground troops are not experienced or don't know, they are only 
going to do based on, and it is a first-hand experience. So 
somehow it is not working.
    Mr. Powers. During Eagle Pass, we did provide tarps before 
the declaration. We did provide--
    Mr. Rodriguez. I got there on Thursday, and on Thursday the 
first thing I saw was another rainstorm coming and they weren't 
there, because I asked them to, if nothing else, get those. It 
occurred Monday. This was Thursday, and whatever little things 
they had. And by the way, I do want to congratulate, because 
when you do get there, your people are very conscientious and 
they are really hard-working. I have nothing but praise.
    But somehow, we need a better system that reacts much 
quicker. If the Mexican government can beat us and take care of 
it and get to the chase, my God, what is wrong with our 
picture?
    Mr. Powers. We try to counsel the state. For example, on 
the Eagle Pass, we provided hygiene kits. I personally approved 
that on Saturday afternoon. We did not have a declaration.
    Mr. Rodriguez. On the Saturday a week after? But on 
Thursday, what I witnesses also, and I don't have any 
experience in this except my other two experiences--and I 
apologize, I am going out of the time--but I am walking the 
scene. I am walking the scene. I am seeing these people go 
through the mud and stuff looking for little pictures. And I 
know how important that is for someone who has lost somebody's 
lives, to find a picture.
    And I am also seeing the Red Cross going and giving food. 
These people don't have any gloves. This is after Monday, 
Tuesday, Wednesday, Thursday. This is the fourth day out there; 
no running water out there. So you know they are not cleaning 
their hands. They don't have gloves, and this is 4 days after 
the disaster.
    Those are I would presume things that automatically ought 
to be done from the very beginning. I just figured, look, you 
have to get some gloves for the people because they were giving 
out hot dogs, and they needed the food, and they needed water 
to drink, but I knew that they were going to be dirty, because 
they were out there working. So basic stuff like that.
    And on the Mexican side, I went and toured it. They were 
lined up to get tetanus shots earlier, and they had taken care 
of most of them by then. They had a mobile unit to provide 
prescription drugs and medicines. For rural America, that we 
don't, number one, anytime you know that 300 homes have been 
destroyed, you are going to find 300 homeless people, because 
in rural communities you don't have the housing. In an urban 
area, you do. In a rural community, you can cut to the chase 
and figure out that you are not going to have housing for 300 
families. That is an easy assessment to make by any rocket 
scientist.
    So you also can look at in terms of looking at some of 
those basic needs. So somehow we have to get you down there a 
lot quicker. If somehow you can come back and have some 
suggestions to us, because what you have there is not working.
    Mr. Powers. The system as it is currently set up requires 
the states to invite the federal government in, and invites 
having us just march into their state. As long as that 
particular piece is in there, our hands are somewhat tied in 
that we cannot just tell the governor we are coming in anyway, 
unless it is to save lives. We can do that to save lives, but 
just for the response after a disaster, we have to wait for an 
invitation.
    Mr. Rodriguez. Yes, and I understand that. I realize the 
importance of local control, Mr. Chairman. But there are some 
states that are more equipped than others, and somehow maybe we 
need to come by and be close by and see how we can educate. Or 
maybe we need some response teams that allow that process to 
occur, because there are some states that would say, ``No, we 
are willing to take care of it.''
    By the way, the people were there. The Red Cross was there. 
The Salvation Army was there. Do they get reimbursed for that 
later?
    Mr. Powers. No, we do not reimburse them.
    Mr. Rodriguez. Okay. Because I know they were there, and 
what was surprising, some of the dialog that was going on, 
because anytime someone is telling me what a great job they are 
doing, you know, I am going to judge it based on what the 
people are telling me. In this case, if you compare what 
happened in Eagle Pass on our side versus what happened in 
Guerra Negros on the Mexican Side, it is day and night. It is 
day and night.
    I don't know whether we are looking at who is going to get 
the contract to clean up or who is going to pay for what as a 
number key issue. I understand that is important, too. I 
realize it, but maybe you can give some thought to how do we 
correct this situation so that we can cut to the case right 
away and be responsive. Because after living on those sites, 
the first 2 or 3 days are okay. After a week, it gets old. It 
gets old. Thank God in those communities, you have a lot of 
relatives, and they go live with their relatives. But in some 
of the communities, you might not have that same kind of 
support.
    The other one that occurred prior to me being a 
congressman, when I was out there campaigning, in El Paso, the 
same thing. It took 14 days for the president to react. Maybe 
there is a way that after the governor calls it, that you guys 
can react right away.
    For example, if you have a president that reacts, and you 
might have one that doesn't, but we could have a situation 
where the governor calls it, then automatically react, and then 
you can always say, ``You know what? It is not to that level, 
but they need our assistance,'' and then come back; versus not 
going in there until 14 or 15 days later, when it is no longer 
an emergency. Somebody else has done it.
    Mr. Powers. In the case of Eagle Pass, it took a few days 
before the declaration was requested. It was approved, I think, 
in 1 days.
    Mr. Rodriguez. Yes, 1 day for you, but for back home it was 
a week. The Mexicans were already offering work. So I told 
them, ``Hey, get that help,'' and then when I announced in San 
Antonio that the Mexicans were coming to help us, then the 
president that same night did it. I don't have to do that. 
There is no need for us to be doing that, playing those games.
    Mr. Powers. Congressman, pardon me for interrupting, we do 
have to wait for the governor to submit the request to us. We 
can't unilaterally just do that.
    Mr. Rodriguez. I apologize.
    Mr. Cuellar. No, you just now took your second line of 
questioning, but go ahead.
    Mr. Rodriguez. What you just said is a little game that 
starts back and forth. My understanding was that the governor 
had called it earlier, and then I heard that FEMA said, well, 
they have to wait until they not only call it, but then they 
have to ask for a certain type of help. Is that correct?
    Mr. Powers. The damage assessment needs to be completed 
before the president can respond.
    Mr. Rodriguez. Let me tell you how that sounds, when you 
are on the border and you are reading articles that it is 
already taken care on the Mexican side. We are doing an 
assessment. That is how it sounds. When people are hurting, oh, 
no, we are doing an assessment 7 days after.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, sir.
    Let me just follow up on what Mr. Rodriguez is talking 
about. I will give you 10 days from today to come up with an 
outline, going through the Stafford Act, going point by point 
saying, ``There is a disaster; this is the first step that 
takes place; this is the second point, the third, the fourth,'' 
and then in between there, if you have any suggestions on how 
we improve the process.
    I can understand that we might wait for the governors and 
all that, but there has to be something we can do to help the 
individuals that are on the ground. I am talking about the 
families that are up in the water. I know in my place, Laredo, 
we sent water supplies and the fire department did a great job 
in helping them. But there has to be a way, and I can 
understand that there have to be certain steps that we take, 
but I am just concerned about the bureaucratic steps that come 
into play.
    What I am asking you is to go step by step and where we can 
effect some changes to help you. If you are constrained by 
certain statutory issues, then let us know what it is. I am 
looking at trying to streamline this for the process of trying 
to bring the assistance down to the people on a much faster 
basis.
    Again, I can understand if there is something that 
constrains you, let us know, because certainly I think Mr. Dent 
and the members of the committee, working with a member who is 
on the Appropriations Committee for the Homeland Security 
Subcommittee, we certainly want to work with you to streamline 
it.
    So I want to make sure you understand: 10 days from today, 
and I want you to include Congressman Rodriguez, and I just 
talked to Graig about this, and with Mr. Dent's staff, to go 
step by step, tell us where we need to maybe make some changes, 
and tell us how we can streamline the process, simply because I 
want to have a better process on how we can do this, because it 
looks like time after time, we have a situation.
    I can understand where, if you have a hurricane, you have a 
little bit of advanced notice. A tornado is a little different 
because it just happened. I have never heard of a tornado in 
Eagle Pass in that area, so it was something very new for us on 
the border. I had also asked to see if Mr. Jerry Moran can come 
in, but I understand that he is in Kansas right now on this 
same situation. I had asked Mr. Dent to see if we could get 
somebody also, because those are the two tornadoes that I can 
think of right now.
    It is always good to have members who are facing that type 
of situation. They are on the ground. I would ask you as you do 
that, to include the committee staff on both sides, and Mr. 
Rodriguez, so we can come up with a response. But I would like 
to emphasize this, Mr. Powers, 10 days from today, I would like 
to have something in writing. And then after I get that, I 
would ask that we sit down again with the members of the 
committee so we can go over this on how we can improve this.
    Mr. Rodriguez. Mr. Chairman, will you yield?
    Mr. Cuellar. Yes, sir.
    Mr. Rodriguez. Let me also just--and I have nothing but 
praise. After you get in, you have some great people. I don't 
want to take that away. I am not here to place blame. I just 
want to know how can we expedite this; how do we make it 
better.
    I know you need more resources, too. That is part of the 
problem, because we have been having more disasters. Then what 
do we need to do. Do we need to establish more preparedness 
teams that are sent out automatically throughout the country or 
what?
    So thank you very much. And I do want to thank you for what 
you do when you do get there. Okay? Thank you.
    Mr. Cuellar. Yes. Again, I emphasize what Mr. Rodriguez 
said. The committee is interested in how do we work together. 
That is what I want. I want to see practical solutions. I hate 
playing these games of ``gotcha``-type of politics. Nobody is 
trying to do that.
    We are just trying to say, how do we streamline and make 
the process better? Tell us how we can work together, Mr. 
Powers, but I would like to see a timetable on this 10 days 
from today, and see the response.
    I know we have gone over the time. I will reserve my 
questions to another time, but I would ask Mr. Dent if he has 
any follow-up questions at this time.
    Mr. Dent. Thank you, Mr. Chairman. I just have a few, and I 
will try to keep it pretty brief.
    To Mr. Endrikat and Mr. Prather again, do you believe that 
legislation is necessary to strengthen the urban search and 
rescue task forces and their role in assisting states and 
localities as they respond to an incident of national 
significance? Have previous administrative attempts been taken 
to strengthen these USAR task forces? If so, how did these turn 
out?
    Chief Endrikat. In relation to the legislation, 
Congressman, I think right now we exist under a few sections 
within the Stafford Act. That really allows us to respond, but 
it doesn't allow us to do some of the proactive things that we 
just heard from the congressman from Texas that are required to 
better support the people.
    The way the legislation is right now, our program is 
statutorily, I believe, we are not fully funded, fully 
authorized, fully empowered to do the things that we are 
required to do. There have been some previous attempts that 
have never gotten to this point. We have never gotten this far 
before in discussing new legislation that would specifically 
authorize our system and fund it adequately.
    Chief?
    Mr. Dent. All right. I will move on to Mr. Powers again.
    Several of FEMA's emergency response teams have a 
communications component to help reestablish communications 
where necessary and to achieve interoperability among emergency 
responders. Could you please discuss the communications 
capabilities of FEMA's emergency response teams?
    Mr. Powers. The MERS units that you talked about do have a 
very robust communications capability. They have the ability to 
restore local communications if the communications, for 
example, at the local police or fire department are wiped out 
due to the disaster, they have the ability to restore that 
communications using their equipment, until the real systems 
can be put back in place.
    They have the ability to multiplex frequencies that allow 
responders from various agencies who operate on different 
radios, different frequency bands, different frequencies, to 
use their normal equipment and have the equipment multiplexed 
electronically that allows them to talk to another agency, 
another jurisdiction.
    They have a limited ability to restore cell phone systems, 
to put up a temporary cell phone network that links into the 
national system, until the national systems can be put back 
into place.
    They have the ability to provide the state EOC or the 
incident command with communications capability via satellite; 
video teleconference capability; as well as other capabilities 
that can provide some limited access to the Internet and to the 
FEMA network, also via the satellite systems that they have on 
board.
    They are available for the state and local responders, the 
state operations centers, to use if they so need.
    Mr. Dent. Also, I just wanted to follow up again, too, the 
House and Senate conferees are eventually going to meet to 
discuss H.R. 1 and S. 4--those are the 9/11 commission 
recommendations and implementation legislation. They are likely 
to discuss a provision contained in the Senate bill that would 
establish a strategic technology reserve to pre-position or 
secure interoperable communications in advance for immediate 
deployment in an emergency or major disaster.
    This technology reserve would be established and maintained 
by the Department of Commerce. It is my understanding that FEMA 
either already has such a capability or is in the process of 
establishing such a capability. Is this true? And do any of 
FEMA's response teams maintain reserve communications 
equipment?
    Mr. Powers. We do not have the capability that is described 
in that particular legislation. In fact, we were curious as to 
why the Department of Commerce was doing that instead of FEMA. 
But we know that the government operates in sometimes unusual 
ways. So we are hoping to integrate that into our disaster 
communications and emergency communications system once the 
equipment is procured.
    Mr. Dent. Just very quickly, how would such a strategic 
technology reserve be maintained by the Department of Commerce? 
How would that interact with existing capabilities of FEMA's 
emergency response teams?
    Mr. Powers. I do not have an answer to that question right 
now, but I will come back to you with an answer.
    Mr. Dent. Quickly to follow up, how would such a Department 
of Commerce capability be integrated into the incident command 
structure?
    Mr. Powers. I will again have to come back to you on that. 
We are still in the development stages of all of the mechanics 
of the deployment of the equipment.
    Mr. Dent. Thanks.
    I yield back, Mr. Chairman.
    Mr. Cuellar. Thank you.
    I want to thank all the witnesses for their valuable 
testimony and the members for the questions.
    The members of the subcommittee may have additional 
questions for you, and we ask you to make sure you respond to 
them on a timely basis, in writing to those questions.
    Again, I want to thank everybody for being here. We 
appreciate the work and the public service that you provide. I 
know that sometimes it is difficult, but we are all trying to 
work together to make sure we do our job together.
    Having no further business, the hearing stands adjourned. 
Thank you.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
